<html>
<title> - THE IMPACTS OF NUTRIENTS ON WATER QUALITY IN THE GREAT LAKES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      THE IMPACTS OF NUTRIENTS ON
                    WATER QUALITY IN THE GREAT LAKES

=======================================================================

                               (110-127)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                     MAY 12, 2008 (Port Huron, MI)

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                   U.S. GOVERNMENT PRINTING OFFICE
42-636 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ARCURI, New York          CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             JOHN BOOZMAN, Arkansas
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               CONNIE MACK, Florida
STEVE KAGEN, Wisconsin               JOHN R. `RANDY' KUHL, Jr., New 
JERRY MCNERNEY, California, Vice     York
Chair                                CHARLES W. BOUSTANY, Jr., 
ELEANOR HOLMES NORTON, District of   Louisiana
Columbia                             JEAN SCHMIDT, Ohio
BOB FILNER, California               CANDICE S. MILLER, Michigan
ELLEN O. TAUSCHER, California        THELMA D. DRAKE, Virginia
MICHAEL E. CAPUANO, Massachusetts    ROBERT E. LATTA, Ohio
GRACE F. NAPOLITANO, California      JOHN L. MICA, Florida
MICHAEL A. ARCURI, New York            (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Freeman, Carl, Professor of Biological Sciences, Wayne State 
  University, Department of Biology, Detroit, Michigan...........     6
Henning, Lynn, Concentrated Animal Feeding Operation Water 
  Sentinel, Sierra Club Michigan Chapter, Clayton, Michigan......     6
Leady, Lieutenant Colonel William J., U.S. Army Corps of 
  Engineers, Detroit District, Detroit, Michigan.................    29
Lehman, John, Professor of Biology, University of Michigan School 
  of Biology, Ann Arbor, Michigan................................     6
Richards, R. Peter, Senior Research Scientist, National Center 
  for Water Quality Research, Heidelberg College, Tiffin, Ohio...     6
Ridgway, Jim, P.E., Executive Director, Alliance of Rouge 
  Communities, Detroit, Michigan.................................     6
Stow, Craig, Physical Research Scientist, Great Lakes 
  Environmental Research Laboratory, National Oceanic and 
  Atmospheric Administration, U.S. Department of Commerce, Ann 
  Arbor, Michigan................................................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Oberstar, Hon. James L., of Minnesota............................    38
Stupak, Hon. Bart, of Michigan...................................    42

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Freeman, D. Carl.................................................    46
Henning, Lynn....................................................    49
Leady, William J.................................................    62
Lehman, John T...................................................    71
Richards, R. Peter...............................................    73
Ridgway, James W.................................................    75
Stow, Craig......................................................    82

                        ADDITIONS TO THE RECORD

The Southeast Michigan Council of Governments, Bill Parkus, 
  written statement..............................................    93
U.S. Army Corps of Engineers, Detroit District, ``Understanding 
  Great Lakes Water Level Fluctuations and Current Conditions''..    96

[GRAPHIC] [TIFF OMITTED] T2636.001

[GRAPHIC] [TIFF OMITTED] T2636.002

[GRAPHIC] [TIFF OMITTED] T2636.003

[GRAPHIC] [TIFF OMITTED] T2636.004

[GRAPHIC] [TIFF OMITTED] T2636.005

[GRAPHIC] [TIFF OMITTED] T2636.006

[GRAPHIC] [TIFF OMITTED] T2636.008

[GRAPHIC] [TIFF OMITTED] T2636.009



      THE IMPACTS OF NUTRIENTS ON WATER QUALITY IN THE GREAT LAKES

                              ----------                              


                          Monday, May 12, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Port Huron, MI.
    The Subcommittee met, pursuant to call, at 12:11 p.m., in 
the Board of Commissioners Room, St. Clair County Commission, 
200 Grand River Avenue, Port Huron, Michigan, Hon. James L. 
Oberstar presiding.
    Mr. Oberstar. The Subcommittee on Water Resources and 
Environment of the Full Committee on Transportation and 
Infrastructure will come to order.
    Welcome, and good afternoon. I want to thank at the outset 
Congresswoman Candice Miller for inviting me and the 
Subcommittee to participate in a full regular hearing of the 
Subcommittee on Water Resources and Environment in Port Huron 
in this part of her district that borders right on one of our 
great treasures of the Great Lakes system, and to express my 
appreciation for her participation in the work of the Committee 
and for advocacy for clean water in the Great Lakes and for our 
whole nation.
    As all of you who are here, I am quite confident, 
understand and concur, these Great Lakes of ours are home to 
one-fifth of all the fresh water on the face of the Earth 
except for that which is locked up in ice. And all the water 
there ever was or ever will be on Earth is with us today, can't 
make any more of it. So it is up to us in this generation to 
pass on to the next generation that treasure of clean water, 
hopefully in better condition than we received it.
    So Congresswoman Miller's advocacy for clean water strikes 
a very responsive cord with me and--and I think with most 
Members of Congress and certainly with those who serve on our 
Committee on Transportation and Infrastructure.
    Our Subcommittee Chair had intended to be here to chair 
this hearing but she had an unavoidable conflict in her own 
district, so you get the Chairman of the Full Committee to 
chair the hearing. I would have been here anyway but I don't 
get to chair very many meetings because the Subcommittee Chairs 
do that so I'm--I'm delighted, and I just want to observe that 
Miss Miller is also a very hardworking Member of our Committee. 
From where I sit I can look down and see who's--who's present, 
who's doing their homework and who's not, and Miss Miller shows 
up for our Subcommittee hearings and for our Full Committee 
markups and she's doing her homework and I appreciate that.
    We're meeting to receive testimony on the impact of 
nutrients on Great Lakes water quality. Nitrogen, phosphorous, 
in appropriate amounts, are essential for aquatic systems and 
for land based systems. But excessive amounts of nutrients 
result in harmful consequences, the worst of which is algae 
blooms. They also result in reduced spawning grounds, reduced 
nursery habitat for fish, they also cause fish kills, hypoxic 
or dead zones and public health concerns that result from 
impaired drinking water and increased exposure to toxic 
microbes. Excessive nutrients have significant impacts over 
large areas and within entire watersheds.
    The effects can be local, they can be downstream, they can 
lead to degraded estuaries, to deteriorated river systems, to 
adversely effected drinking water reservoirs, and to the 
creation of hypoxic dead zones where fish and aquatic life 
cannot exist.
    The focus of this hearing is on the impact of nutrient 
contamination of the Great Lakes. Wide spread nutrient 
contamination is a national issue. It's one that deserves the 
Committee's continued attention, to which we have already 
devoted attention and will continue in the course of this 
Congress.
    Some widespread examples are the Chesapeake Bay and the 
Mississippi River system and its Delta. In the Chesapeake Bay, 
excessive nutrient loading has been widely cited as the primary 
cause for water quality deterioration, loss of shell fish and 
fish life, deterioration of the blue crab community and the 
oyster community. At one time oysters were able to filter all 
the water of Chesapeake Bay, the largest estuary of the world. 
Now that's not happening.
    Implementing proper control mechanisms are widely 
recognized as necessary to meet the 2010 deadline for cleaning 
up the Chesapeake Bay and yet we're falling ever further 
behind. The problems of the Chesapeake Bay don't begin at the 
waters edge on Kent Island, but they go all the way to upstate 
New York, to upstate Pennsylvania, to West Virginia, to 
Maryland.
    Similarly, in the Gulf of Mexico, the Mississippi River 
system contributes the pollution and other toxic loading from 
11 states and to that estuary that extends from New Orleans out 
into the Gulf.
    But because of the national scale of the problem and the 
reluctance of states along the Mississippi, Ohio, Illinois, 
Missouri River system to shoulder their appropriate share of 
responsibility, the dead zone in the Gulf of Mexico is unlikely 
to be resolved anytime in the near future.
    Now the first, I would say even the--having served on the 
Committee since I started in 1963 as Clerk of the Subcommittee 
on Rivers and Harbors, serving for my predecessor John Blatnik, 
who was Chair of that Subcommittee and later Chair of the Full 
Committee, go back a long ways; not to when the Hill was 
founded but just shortly afterward. The most extraordinary 
moment of the Cuyahoga River catching on fire, the large fish 
kills in Lake Erie, and the solemn pronouncement that Lake Erie 
was dead in the 1960s when excessive nutrients escalated the 
growth of algae, and soon it became the dominant plant species 
blocking out light, killing fish, covering the beaches with a 
slimy, mossy covering, and absorbing all of the oxygen 
galvanized the nation and the Congress to demand to do 
something.
    The doing something was the Clean Water Act of 1972. But 
what was clear even before the enactment of that legislation 
was that phosphorus was the limiting element, that is if you 
remove the phosphorus even more than removing nitrogen, you 
will begin to restore oxygen levels and water quality. But 
plants and algae growing, dying and decomposing in Lake Erie 
causing oxygen deficiency at the bottom of the lake, or anoxia, 
resulted in fish kills and beaches covered with the slimy 
residue of--of the algae.
    Well, enacting the Clean Water Act of 1972 and the funding 
reached almost $6 billion a year for building of sewage 
treatment facilities, interconnecting sewer systems, collector 
systems and the Canada-U.S. Great Lakes Water Quality 
Agreement, also in '72, began to reverse the process.
    Lake Erie was then proclaimed a dead lake. One group of 
scientists suggested that we ought to just punch a hole in the 
bottom and let it all drain somewhere was for a while seriously 
considered, but then people realized that that was not a very 
good idea. That treatment of the watershed was critical, 
treatment of the point sources was critical, and industry, 
municipalities, individuals, federal and state government and 
local governments all joined together and restored the water 
quality of Lake Erie.
    But we're beginning to see the re-emergence of a dead zone 
again. The bottom waters in the central basin are becoming 
anoxic at high summit partly due to excessive nutrient 
loadings, and some because of the nutrients that already were 
on the bottom haven't been cleaned out were beginning to 
resurge. We're also seeing harmful algal blooms at Bear Lake, 
at Muskegon Lake, Saginaw Bay and western Lake Erie.
    Now, why? Well, we're beginning again to see runoff from 
lawns, from roads, from farm land, accumulate at a rate that 
overfeeds the algae that normally exist in the environment. And 
add to that, invasive species, the zebra muscles and the quagga 
muscles that are filter feeders that filter the food in--in the 
water column, and filter it out, deposit their own wastes in 
the bottom, and then allow more light to penetrate more deeply 
and create more growth that then create another cycle of 
deterioration.
    Those are issues that witnesses today will help us to 
understand better, to give us a deeper understanding of how 
best to take on the problem of nutrient pollution, how to 
control it, contain it, control it and reverse it. And I'm 
looking forward to witnesses who can give us their insights on 
monitoring and control mechanisms, their sufficiency, the need 
for additional action, for perhaps funding for treatment of--or 
rebuilding of our waste water treatment systems and how 
together, federal, state and local government can work to 
successfully address this vexing but very, very dangerous 
problem of the resurgence of nutrient stimulated deterioration 
of lake quality.
    Chair now yields to the gentlewoman from Michigan, Miss 
Miller, for her statement.
    Mrs. Miller of Michigan. Thank you very much, Mr. Chairman. 
And I want to welcome all of our witnesses certainly and those 
of you that are joining us in the audience today, and I 
certainly want to first of all, recognize and thank the county 
commissioners for allowing us to use their beautiful room here.
    I know we have a couple of county commissioners in the 
audience, I saw Jeff Bloom and--and Commissioner Heidemann as 
well a little bit earlier. We also have some state 
representatives who have been working on many of these issues 
in the state level, State Representative Pavlov and Espinoza 
join with us as well as many people from the environmental 
community. I know the Farm Bureau is represented here and 
people who are really interested in this issue.
    But most of all I certainly want to thank and welcome to 
Port Huron, the maritime capital of the world of the Great 
Lakes here, our wonderful Chairman, and you all heard a--had an 
opportunity to hear his opening comments here, but Chairman 
Oberstar and I share a very principal advocacy of protecting 
our Great Lakes and when I had an opportunity to go to Congress 
I said if I could get on any Committee there I would like to 
get on the Transportation and Infrastructure Committee for a 
number of reasons, not the least of which is because of the 
wonderful leadership that Chairman Oberstar has demonstrated 
and I knew he was a Great Lakes' guy and those very--issues 
very near and dear to me and the 30 years that I've been 
involved in public service and having an opportunity now to be 
on this Committee and work with him and other Members of the 
Committee on Great Lakes issues, which are so critical to all 
of us, has been a tremendous thing.
    Our Committee just passed with his leadership, finally, 
after--its way overdue, but we--he has pushed this through 
the--our--our Subcommittee, our Full Committee, went to the 
full House and is now waiting at the Senate for action on 
invasive species, which you mentioned, and ballast water 
discharge.
    All of us are painfully aware of the negative impact that 
invasive species have had on our Great Lakes and this--this 
piece of legislation essentially requires the salties, the 
ocean going freighters, before they come through the St. 
Lawrence Seaway entering into the Great Lakes, to discharge 
their ballast water out in adequate depth in the ocean before 
they come into the Great Lakes.
    We've also worked together on state revolving funds, which 
was something we were discussing on our way traveling in from 
the airport today to the--to the hearing, which will allow for 
states and local municipalities to access funding to assist 
them with inadequate underground infrastructure.
    We are in a community right now that is dealing with such a 
thing where you have combined sewer overflows that happen after 
heavy rains. It's not particularly inherent to--to Port Huron 
or any of the older industrial towns that have experienced 
growth, certainly since the time that they built their 
infrastructure, and we're trying to assist with those kinds of 
things and the Committee has been very, very involved and these 
are wonderful pieces of legislation.
    We also have worked on the Water Resources Development Act, 
again something that was long overdue, and you really pushed 
that thing through and I appreciate that. It's very important 
for the Great Lakes, a number of different critical components 
of that--of the reauthorization of the WRDA Bill, as we call 
it, very important to the Great Lakes, so so many different 
issues that this Committee has worked at and all of--pretty 
much all of the Great Lakes issues do go through this--this 
Committee.
    Transportation, of course, is absolutely a huge part of our 
national agenda, but often times as I say, people don't 
recognize all the water quality issues that go through the 
Committee, so it's been a wonderful experience for me.
    And--and when I asked the Chairman about the possibility of 
having a field hearing in Port Huron his reaction obviously was 
very positive. And, not to talk out of school here, but I think 
I can tell the folks, that he's been to Port Huron many times 
besides today's event. His favorite uncle was a resident of 
Port Huron and so he's spent many happy hours here as a child 
and growing up and probably knows the City of Port Huron as 
well as anybody sitting in this room I will tell you, and so we 
had an opportunity to go take a look at the bridge and talk 
about the bridge plaza projects and we looked down at Desmond 
Landing, I was explaining to him some of the different 
waterfront development things, things that are happening, the 
positive things happening in the city.
    And I also mentioned, and we are going to showcase with our 
testimony here today, how proud we are of our water quality 
monitoring system which can be a national model, and we'll talk 
about that during the Committee hearing here with our 
testimony, but I was mentioning to him about how SC4 just 
recently received some federal appropriation to--for their 
curriculum where they're going to be training young men and 
women on water quality monitoring systems and as--as our state 
changes a bit from some blue collar jobs to some green collar 
jobs we have wonderful opportunity right here in the Blue Water 
area to do that and as well working with the Chairman and other 
Members of the Committee on the phosphorus issues and on the 
nutrient issues which will be very interesting to hear the 
expert testimony on this today.
    As many people know, there are two states that have been 
actually a leader on this, both Florida and Minnesota, the 
Chairman's state, have passed statewide restrictions, or bans, 
we'll hear some about that for phosphorus, and Michigan of 
course, has now got some legislation in the state house, a 
similar thing because we have so many of our local 
municipalities that are passing their own individual ordinances 
to deal with phosphorus. We see it in Lake St. Clair, we see it 
in the muck issue all around the thumb area into Saginaw Bay 
and various other parts of our state on the West Side and so I 
think from the federal level today we'll be interested to hear 
about what we can do as a Congress to bring more attention to 
this issue and what may be appropriate role for us to play, 
again all with a impetus toward protecting water quality and--
and what we can do that is reasonable but is very, very 
necessary to protect the quality of our, as I say, our 
magnificent Great Lakes.
    So again, I welcome the Chairman to Port Huron, and welcome 
back to Port Huron, and we are so delighted to have you and to 
have this hearing here today.
    Thank you very much, Mr. Chairman.
    Mr. Oberstar. Thank you, Miss Miller. And to that splendid 
recitation, I told you she does her homework, follows the work 
of the Committee and active participate.
    I want to add, in light of your initiatives here in Port 
Huron, that we passed H.R. 569, the Water Quality Financing Act 
of 2007, through Committee and through the House to provide a 
billion six hundred million dollars in federal grants to 
communities to address their combined storm and sanitary sewer 
overflow problems. If only the United States Senate would act 
on it now and get that over to the President, have it signed, 
we did that last year, in the first session of this Congress.
    So, without any further comment that might get me in 
trouble with the United States Senate, which I've done on many 
occasions, we'll proceed with our very distinguished panel of 
witnesses, the first panel of witnesses, and we'll--we'll begin 
with Dr. Craig Stow, Physical Research Scientist, the Great 
Lakes Environmental Research Laboratory of NOAA at the 
Department of Commerce.
    Dr. Stow?

TESTIMONY OF MR. CRAIG STOW, PHYSICAL RESEARCH SCIENTIST, GREAT 
 LAKES ENVIRONMENTAL RESEARCH LABORATORY, NATIONAL OCEANIC AND 
 ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE, ANN 
  ARBOR, MICHIGAN; MR. CARL FREEMAN, PROFESSOR OF BIOLOGICAL 
   SCIENCES, WAYNE STATE UNIVERSITY, DEPARTMENT OF BIOLOGY, 
   DETROIT, MICHIGAN; MR. R. PETER RICHARDS, SENIOR RESEARCH 
    SCIENTIST, NATIONAL CENTER FOR WATER QUALITY RESEARCH, 
HEIDELBERG COLLEGE, TIFFIN, OHIO; MR. JOHN LEHMAN, PROFESSOR OF 
 BIOLOGY, UNIVERSITY OF MICHIGAN SCHOOL OF BIOLOGY, ANN ARBOR, 
 MICHIGAN; MR. JIM RIDGWAY, P.E., EXECUTIVE DIRECTOR, ALLIANCE 
  OF ROUGE COMMUNITIES, DETROIT, MICHIGAN; MS. LYNN HENNING, 
 CONCENTRATED ANIMAL FEEDING OPERATION WATER SENTINEL, SIERRA 
            CLUB MICHIGAN CHAPTER, CLAYTON, MICHIGAN

    Mr. Stow. Thank you again, and good afternoon Chairman 
Oberstar and Congresswoman Miller. I am Dr. Craig Stow, a 
scientist at NOAA's Great Lakes Environmental Research Lab in 
Ann Arbor----
    Mr. Oberstar. Please bring your microphone a little closer.
    Mr. Stow. I'm sorry. Is that--is that better now?
    Mr. Oberstar. A little--little closer.
    Mr. Stow. All right. As I said, I'm a scientist at the NOAA 
Great Lakes Lab in Ann Arbor, also known as GLERL, and I've 
been working on the issues related to nutrient inputs it 
aquatic ecosystems for almost the past 30 years.
    Mrs. Miller of Michigan. Not to interrupt, but I still 
don't think people can hear you. Could you bring that--there 
you go.
    Mr. Stow. Is that----
    Mrs. Miller of Michigan. Pull it right up to you.
    Mr. Stow. That--that going to be adequate?
    Mr. Oberstar. There you go.
    Mr. Stow. Okay.
    Mr. Oberstar. That's better, yeah.
    Mr. Stow. All right.
    Mr. Oberstar. You can even bend that microphone down a 
little bit. There you go.
    Mr. Stow. Okay. Well, thank you for inviting me to testify 
today about GLERL's activities that relate to the larger issue 
of nutrient related pollution in the Great Lakes.
    Our newest project is a study of the impact of multiple 
stressors from human activities such as toxic contaminants, 
invasive species, over fishing, changing water levels and 
excessive nutrients in Saginaw Bay, an area where we have a 
long history of studies. The combined effects of these 
stressors have compromised the health of Saginaw Bay and 
resulted in the loss of many ecosystem services that people 
value.
    This five-year project began in 2008 and is funded by a 
$3.76 million grant from the NOAA Center for Sponsored Coastal 
Oceans Research. On this project the NOAA Great Lakes Lab is 
working in partnership with the University of Michigan, 
Michigan State University, Limno Tec, which is a private 
consulting firm, Western Michigan University, University of 
Akron, and Michigan's Department of Natural Resources and 
Environmental Quality, and this last association is important, 
they are integral partners on this project, and as information 
becomes available it is something they can use to effect 
changes as they see necessary.
    The project also includes surveys to assess public values 
so that decision makers can devise policies that are consistent 
with public attitudes, and currently we are initiating a 
citizen monitoring program to provide additional data and 
engage residents in the area in our research.
    Excessive nutrients, phosphorus in particular, have been 
important stressors in Saginaw Bay and the other Great Lakes 
areas for many years. Nutrients are essential for aquatic 
ecosystems but excessive nutrient inputs can cause 
eutrophication. And eutrophication has a number of undesirable 
symptoms that include nuisance and harmful algal blooms, 
reduced oxygen levels and sometimes fish kills.
    These problems were recognized in the Great Lakes in the 
1960s and limits on phosphorus inputs were set in 1978 under 
the Great Lakes Water Quality Agreement. The goal in Saginaw 
Bay at that particular time was to reduce problems associated 
with taste and odor at the drinking water intakes. These 
initial controls were fairly effective and resulted in 
documented decreases in phosphorus concentrations in the water 
and the symptoms of eutrophication diminished through the 
1980s.
    In the 1980s and 1990s our focus sort of shifted to toxic 
pollutants such as PCBs and nutrient related problems faded 
into the background. However, in the mid to late 1990s it 
became apparent that problems with eutrophication persisted, 
not just in the Great Lakes, but across the country. Non-point 
source nutrient inputs such as runoff from farm and towns are 
an ongoing problem and in some aquatic ecosystems phosphorus 
has accumulated in the bottom sediments serving as a continuing 
supply even though inputs have been reduced.
    In addition, Saginaw Bay has experienced profound changes 
since the 1990s. In particular, the introduction of invasive 
zebra mussels and more recently the closely related quagga 
mussels. These mussels live on the bottom and filter large 
amounts of water. This filtering activity removes particles and 
other pollutants which makes the water clearer and is generally 
considered a beneficial effect, but it also fundamentally 
changes the way nutrients and other pollutants move through the 
system. Zebra and quagga mussels are also believed to foster 
the growth of toxic algal species promoting harmful algal 
blooms.
    A major concern around Saginaw Bay currently is muck, which 
is what the local folks refer to as the--are the decaying algae 
that accumulates on the beaches. We believe that muck is 
primarily Cladophora, a species of algae that grows on the 
bottom, and has been a problem periodically in the past. The 
growth of Cladophora is fostered by the clear water that 
results from filtration by the zebra and the quagga mussels. As 
the water becomes clearer more sunlight can reach the bottom 
causing the Cladophora to grow. Cladophora growth may also be 
stimulated by the accumulation of phosphorous near the bottom 
that also results from filtering by the zebra and the quagga 
mussels.
    Low water levels may also be contributing to this problem. 
With shallower water more light can penetrate to the bottom and 
there are more shallow areas and more exposed beach area. So 
Saginaw Bay is now fundamentally different than it was when 
phosphorus limits were established.
    Additionally, as our concern with nutrients waned in the 
1980s, so did nutrient monitoring and as we began this project 
it was unclear if phosphorus limits that were established under 
the Great Lakes Water Quality Agreement were being met 
currently. Further, since the introduction of the invasive 
mussels, it's unclear if these limits are even still relevant.
    Given the influence of these invasive mussels and the lower 
lake levels, it may not be practically feasible to reduce 
phosphorus enough to effectively control these troublesome 
symptoms of eutrophication.
    The goal of our multiple stressors project is to shed some 
light on these processes and to work interactively with 
managers and stakeholders to clarify possible management 
approaches and identify management limitations. Some of the 
problems I've mentioned are specific to the Great Lakes but the 
general problem of interacting stressors effects lakes and 
coastal ecosystems everywhere.
    So thank you for inviting me to testify and I'm happy to 
answer any questions that you may have.
    Mr. Oberstar. Thank you for your splendid scientific work 
and the contribution you've made today, broader and deeper 
understanding of this issue.
    Our next witness, Dr. Carl Freeman, Professor of Biological 
Sciences, Wayne State University, Department of Biology from 
Detroit, welcome.
    Mr. Freeman. Thank you very much. I appreciate this 
opportunity to speak with you today about water quality 
monitoring.
    We sit here at the headwaters of a massive river, the St. 
Clair River, which flows at 6000 cubic meters per second, 
making it one of the largest rivers in North America. This 
massive volume of flow is incredibly important to what I'm 
going to say today. And I'm going to apologize for sounding 
like a teacher, but this is one of those important facts I 
would really like you to remember as I go along.
    Why do we need monitoring? Because people, agriculture, and 
industry all use water and unfortunately also contribute to the 
pollution of the remaining water which others use. I'm going to 
argue that we need to enhance our monitoring capabilities to 
look at more types of organisms and more kinds of chemicals in 
the water than we presently screen for. And because of the flow 
of the river and the rapid time scale at which events occur, we 
must use more rapid monitors than we currently do. Let me first 
demonstrate the need for monitoring.
    To quote from the Sarnia Chemical Industry brochure, 
"Sarnia is Canada's largest cluster of chemical, allied 
manufacturing and R&D facilities. It includes companies such as 
Basell Canada, Dow Chemical Canada, INVISTA, Imperial Oil 
Limited, LANXESS (formerly Bayer), NOVA Chemical, Praxair 
Canada, Shell Canada Products, Air Products Canada, Terra 
International (Canada), SCU Nitrogen, Inc." Among these are 
both nitrogen and phosphorus fertilizer plants. These 
manufacturers ultimately use the St. Clair River or Lake St. 
Clair, as either a source of processing water or cooling water.
    In July of 2006, GAO reported on chemical spills greater 
than 50 gallons that occurred in the connecting channels of the 
Great Lakes during the period 1994 to 2004.
    And let me quote here, "EPA spill data is of limited use." 
According to the data available, there were 991 spill reports 
from the U.S. Side of the corridor while Canadian authorities 
reported only 157 spills. However, GAO noted that "these 
reports do not accurately portray the actual number or volume 
of spills." This is a huge understatement.
    According to GAO, "Spill notification on both sides of the 
corridor is largely dependent upon reporting by parties 
responsible for the spill, and many spills likely go unreported 
by responsible parties." Now as my friend Doug Martz notes, 
this system of self-monitoring and self-reporting is likely no 
more effective in this venue than it is with speeding on the 
freeway--in my opinion, the policy of self-policing is fatally 
flawed.
    The GAO report went on to state that, "According to (EPA) 
officials, with the current resource constraints, they can only 
inspect facilities once every 500 or more years." The report 
noted that EPA inspections had occurred--that had occurred 
often disclosed "significant numerous spill prevention 
deficiencies," yet EPA issued only four fines from 1994 to 
2004.
    The Canadians have also examined their industry. According 
to the Canadian Industrial Pollution Action Team Report, quote, 
"We found a system that was largely in compliance with its 
regulatory requirements, yet where spills to air and water 
still occur... We could not therefore avoid the conclusion that 
the existing system of approvals, inspection, enforcement, and 
prosecution is not working as well as it should."
    So, from this I conclude that industry has polluted the 
river and that there is ample opportunity for continued 
pollution. And that apparently will increase as they put in a 
new tar sands refinery in Sarnia.
    Now, currently EPA requires drinking water plants to 
monitor the quality of both raw and processed water. However, 
they have infrequent testing. For example, the Detroit Drinking 
Water Plant tests for lead and copper every three years and 
volatile organic compounds four times a year. This frequency in 
testing is determined by EPA.
    Now, the assumption that they're making implicitly is that 
water quality is static. This assumption is false.
    In January of 2001 Nova Sarnia reported the release of 
220,000 gallons of toluene, benzene and xylene--carcinogens and 
mutagens. This volume of chemicals would pollute 18 billion 
gallons of water, yet the Detroit Drinking Water Plant did not 
report the spill. It's quite likely they weren't monitoring for 
volatile organics that day.
    Ironically, they must monitor for pesticides used on cotton 
and pineapple fields--the closest of which are thousands of 
miles away, but drinking water plants are not required to 
monitor for most of the chemicals that have actually been 
spilled upstream of their intakes.
    Three years ago, I compiled a list of chemicals that had 
been spilled and compared it to the EPA's priority pollutants 
list. Their list contained only 20 to 30 percent of the 
chemicals that had been spilled. So even if drinking water 
plants were monitoring, their equipment will likely not detect 
most of the chemicals (harmful or otherwise) that are spilled.
    Through the help of Congresswoman Miller and Senator Levin 
and state and local governments, a near real-time monitoring 
system now stretches along the U.S. Side of the border all the 
way from Marysville here in the upper reaches of the St. Clair 
to Lake Erie. The system has a variety of meters to detect 
changes in water quality, most of these are presently 
implemented. However, the heart of the system is a series of 
membrane induced mass spectrometers that are capable of 
analyzing more than 10,000 different chemicals in less than 
five minutes. This part of the system is still being deployed. 
Nevertheless, the system, when completed, will be the first in 
the country that analyzes water quality on the same temporal 
scale as the flow of the river, and it will be able to detect 
the overwhelming majority of the industrial pollutants likely 
discharged in the system.
    If this system were coupled with a three-dimensional flow 
model of the river, it would be possible to compute when and 
where a spill occurred and thus to hold the polluting party 
responsible. The system itself needs to be expanded, it needs 
to involve more depths and more locations. As it stands now it 
looks only at the drinking water intakes and so the majority of 
the spills pass above it in the water column.
    Now, I was going to address biological monitoring. I don't 
know if you'd like me to still do that, my time seems to have 
expired.
    Mr. Oberstar. I think--I think we're going to--we'll come 
back to that----
    Mr. Freeman. Okay.
    Mr. Oberstar. --in the question period. We have a full 
agenda and we need to conclude by about 2:00----
    Mr. Freeman. Thank you very much.
    Mr. Oberstar. --but we'll--we'll return to that. And 
meanwhile, I want you to think about that three-dimensional 
flow model of the river and how it could be implemented.
    Dr. R. Peter Richards, Senior Research Scientist, National 
Center for Water Quality Research at Heidelberg College, Ohio, 
welcome.
    Mr. Richards. Thank you Mr. Chairman, for the opportunity 
to testify today. Like the others, I'm going to address my 
remarks primarily to the need for improved monitoring of the 
systems that we're dealing with in the Great Lakes.
    I am with the Heidelberg College, National Center for Water 
Quality Research, formerly the Water Quality Lab, and our group 
has been monitoring the major tributaries to Lake Erie on the 
U.S. Side since the early '70s and so we have considerable 
experience with what's going on in Lake Erie.
    Mr. Chairman, you've already given the first half of my 
testimony for which I thank you. But I'd just simply point out 
that early in the process of trying to rehabilitate Lake Erie, 
a target load was established of 11,000 metric tons of 
phosphorus inputs on an annual basis from all sources. At that 
time the loads were on the order of 20 to 25,000 metric tons, 
so getting down to that level is quite a substantial 
achievement. But this was done about 1983 and since that time 
the loads of total phosphorus have fluctuated about that 
quantity, sometimes a little higher, sometimes a little lower, 
primarily in response to the non-point source component which 
is driven by weather events and is uncontrollable and 
fluctuates from year to year.
    What I would point out is that we know pretty well what's 
been going on with Lake Erie and its loadings and how they meet 
the target primarily because we monitor and we have a very 
intensive monitoring program that provides very detailed data. 
The--Dr. David Dolan, who is the person who does the data 
gathering and calculations that allow us to assess what the 
total loads to Lake Erie are, indicates that if it weren't for 
the data that our lab produces he simply would be unable to 
calculate a respectable load estimate so this enhance--re-
enforces the value of the monitoring.
    And, in fact, phosphorus loads have not been calculated for 
any of the other Great Lakes since the mid 1990s because there 
simply is not enough data to support an estimation of the 
loads. So we don't know what's going on, what's going into 
those other Great Lakes the way we do with Lake Erie.
    Monitoring data also provides us a way of assessing how 
we're doing at meeting environmental goals. With the data that 
we've gathered for example, we could now show conclusively that 
the loads of--of sediment and of the phosphorus attached to the 
sediment have decreased continuously over the last 30 years in 
the Maumee and Sandusky Rivers which are two of the major 
tributaries to Lake Erie.
    If we look at the data in a careful and thorough way we can 
also demonstrate that these reductions are not just a factor of 
weather or chance or something like that, they're directly 
accountable to the management practices we put on the 
agricultural landscapes, primarily conservation tillage, no 
till, and other buffer strips and grass waterways, things of 
that sort. So, very often skeptics will say well, how do we 
know these Best Management Practices are working? We know 
because we monitor and we have the data to prove it.
    Now at the same time over the last decade or so we've seen 
an alarming trend toward increases in the loadings of dissolved 
phosphorus, not the stuff that's attached to the sediment but 
the stuff that's dissolved in the water, going into Lake Erie 
through the same tributaries, and this is alarming enough that 
Ohio EPA has convened a Lake Erie Phosphorus Task Force to 
consider the problem and what the state's response should be to 
it. Again, we know about this problem because we're monitoring.
    If we were not monitoring currently, we--we'd observe 
problems in the lake, we would now be running around try to 
figure out where the problems are coming from, it would take us 
a decade to establish with confidence the importance of the 
tributary inputs for this process, and we would never know 
about the substantial increases that have occurred since the 
mid 1990s when the dissolved phosphorus units were at their 
minimum.
    What--what we find is that anytime you mention monitoring 
people throw up their hands and say well, we can't do that, 
it's too expensive and I guess I just have to say expense is a 
relative thing. You know, we--we operate our monitoring program 
which produces about 500 samples per year per tributary for 
$35,000 a station a year. Is that expensive? Well, it's money. 
But, you know, we--we visit doctors once a year to monitor our 
cholesterol and our blood pressure and so forth. That's 
expensive. We take our cars into the shop every 3,000 miles or 
so to change the oil and see how the engine's doing. That's 
expensive. We do these things because the alterative is 
potentially much more expensive and I think the same analogy 
applies here to the Great Lakes.
    What's the cost of not knowing what's going into the Great 
Lakes? In my view, these lakes are so valuable that the 
potential cost of not knowing what's happening and trying to in 
effect manage them "blindfolded" is--far outweighs the cost of 
implementing a respectable monitoring program for them.
    It's a simple fact that the current state of monitoring the 
Great Lakes is woefully inadequate and I just would encourage 
the Committee to do anything in their power to establish a more 
adequate monitoring program for the other Great Lakes.
    That completes my testimony, thank you very much. I'd be 
glad to answer questions at an appropriate time.
    Mr. Oberstar. Thank you very much Dr. Richards, for your 
splendid contribution.
    Professor John Lehman, Professor of Biology, University of 
Michigan, School of Biology at Ann Arbor.
    Mr. Lehman. Representatives Oberstar and Miller, thank you 
for inviting me to speak with you today.
    And Mr. Oberstar, I have to congratulate you on having an 
excellent grasp of some of the principles that I was going to 
begin my talk with, so once again.
    The underlying cause of excessive, nuisance growth of the 
aquatic flora, known as algae, is excessive abundance of plant 
mineral nutrients, particularly the mineral phosphate. 
Phosphate is ubiquitous in nature because it enters waterways 
through erosion and weathering of rocks and soil, but its 
abundance is greatly amplified by human activities. It's 
customary to distinguish between two categories of phosphate 
sources: Point sources and non-point sources. Point sources 
include for instance, outfalls from sewage treatment plants. 
Non-point sources are diffuse, as for instance, drainage from 
streets and parking lots.
    Control of phosphate income to the Great Lakes has been a 
cornerstone of management strategy for water quality since the 
1970s. The strategy rests on a simple principle, in order for 
algae to flourish to excess, they need an abundance of simple 
mineral building blocks from which they can make their living 
cells. These most common are carbon, oxygen, and hydrogen, but 
those are freely available either from the gases of the 
atmosphere or from the molecules of water itself.
    Next in importance are nitrogen and phosphorus. Of these, 
one group of algae that is symptomatic of nuisance conditions 
can use nitrogen gas from the atmosphere to make their own 
proteins. So that leaves phosphate as the critical control 
point for preventing nuisance conditions.
    Phosphate is an absolutely essential mineral, it has no gas 
phase at environmental temperatures, and thus the supply of 
phosphate to lakes is a fulcrum point that leverages the size 
of the algal crops that can develop.
    Historically, the focus of regulations limiting phosphate 
discharges to waterways has been point sources. More recently, 
non-point sources have been attracting increased scrutiny. In 
part this may reflect the fact that each incremental gain in 
phosphate removal from point sources comes at an accelerating 
cost, and there's a belief that modest and relatively 
inexpensive behavioral changes, such as retaining buffer strips 
of vegetation along stream banks, can yield positive results.
    At the societal and political level, there's a cost-benefit 
analysis in which immediate costs associated with technical 
improvements to phosphate removal can be quantified relatively 
objectively, but future benefits are necessarily prospective 
and theoretical.
    Good environmental management decisions depend first on 
decision-making being informed by good environmental data and 
second on existence of a predictive theoretical framework to 
interpret the data.
    In the case of the Blue Ribbon Commission on Lake St. Clair 
that's now finalizing its report, it was fortunate that a body 
of data about phosphate in tributary streams exists. Those data 
had been collected in 2004 and 2005, recently enough to 
represent modern conditions. My analysis of those data caused 
me to conclude that the division between point source and non-
point source phosphate in the Clinton River, one of the most 
notorious sources of nutrient pollution, is almost exactly 50-
50. This suggests that future management controls on either 
point or non-point sources are equally viable strategies.
    One strategy for controlling non-point sources of phosphate 
that's gaining political momentum is to restrict the use of 
lawn fertilizers containing phosphate. Many soils, particularly 
those derived from sedimentary rocks, contain enough phosphate 
to grow grass perennially, especially if the clippings are 
retained on the--on the lawn.
    Unfortunately, at this stage I must report that there is 
not enough scientific evidence to demonstrate that statutory 
limitations have produced the demonstrable improvement in water 
quality in jurisdictions that have adopted the policy. It must 
be acknowledged that research in this area is in its relative 
infancy owing to the fact that the statutes and ordinances are 
new, and in many cases baseline data are scarce.
    That is not so for the U.S. Streams tributary to Lake St. 
Clair. For--for the existence of baseline data makes these 
watersheds excellent candidates for phosphate control measures 
that can be subject to evaluation and assessment of 
effectiveness.
    Such an assessment is currently underway nearby in the 
Huron River watershed of Southeastern Michigan. Ordinances 
banning phosphate from fertilizers were predicted to produce a 
mere 25 percent reduction in phosphate loading to the river. 
Statistical analyses indicate that it will take two years of 
weekly measurements now under way to learn whether the desired 
effect was achieved.
    With respect to reducing point sources, the aging 
infrastructure at many wastewater treatment facilities makes 
them ripe for renovations and upgrades to incorporate modern 
phosphate removal technologies. As opposed to the present 
vagaries about water quality improvements that may result from 
non-point source controls, it's very easy to predict the 
reductions to phosphate loading that would result from 
reductions in the effluent phosphate concentrations from 
wastewater treatment facilities. In the case of the Clinton 
River, a 50 percent reduction in phosphate discharge will 
produce a 25 percent reduction in phosphate levels and a 
corresponding decrease in maximum algal biomass that can 
develop. Those numbers illustrate some of the insights and 
prediction that science can contribute to decision-making. 
Future water quality, however, depends ultimately on economic 
and political decisions, not on science alone.
    Thank you for your attention.
    Mrs. Miller of Michigan. Thank you.
    Mr. Oberstar. Well, you're so right in the latter 
observation, so often it's not the technology but the political 
will to carry it out, that's why we hold hearings.
    Mr. Jim Ridgway, Executive Director, the Alliance of Rouge 
Communities of Detroit.
    Mr. Ridgway. And a bunch of other things.
    Mr. Oberstar. And a bunch of other things.
    Mr. Ridgway. I'm really honored to be speaking particularly 
to you, Chairman. This is probably the only time I will ever 
address Congress and I will not waste my five minutes repeating 
what they've said; nutrients are bad for our Great Lakes. I 
also will not sugarcoat the many challenges that will prevent 
us from averting the demise of our lakes.
    The Great Lakes will only be protected with strong federal 
leadership. I understand that you staffed the drafting of the 
Clean Water Act. At the same time, I happened to be in college 
and I was at the first Earth Day, I made it through a couple of 
engineering degrees, I've spent my career sort of on the other 
side, working with locals, working with industries, and we've 
done an awful lot of good, but there's also things that are 
falling through the cracks.
    In 1972 the country looked to Congress to clean up our 
waters and Congress delivered. We're looking at you one more 
time and we hope that you can deliver.
    Right now nutrients are degrading the Great Lakes and I 
have no reason to believe that that degradation will abate in 
my lifetime. I'm speaking to you as a citizen to Great Lakes 
and a couple of other titles.
    The interesting thing about the Alliance for Rouge 
Communities is that the communities got together recognizing 
that the state was failing to do some things and the feds were 
failing to do some things, and the local communities got 
together to try to do those things. What I can say with all the 
folks I've worked with is they are the "A" students, they're 
the choir to which we preach. They all want a clean lake and 
they all recognize more needs to be done. They're willing to do 
what they can do but they are looking to the Federal Government 
to do more. They are also looking to the Federal Government for 
more support, and when I say more support I mean more money, 
money to facilitate the work that's being done locally, money 
to facilitate the work that's being done by the federal 
agencies and the state agencies.
    Is there really a problem? Yes. They've talked about it and 
they had not even really gotten to the worst cases which are 
blue-green algaes, "Red Tides," botulism cases. There's a lot 
of things about the nutrients that many don't believe could 
happen on our Great Lakes. I know they can.
    Excess nutrients kill lakes.
    In the end of my testimony I've included a Google map. If 
you go to Google Earth, you look at it, and if you look at 
Saginaw Bay, Lake St. Clair, and western Lake Erie, it's really 
obvious we're overloading it. And I remind you that 90 percent 
of the water that goes over Niagara Falls, which you can 
visually see, goes through Lake St. Clair. And if you can get 
Lake St. Clair to turn that green in a hundred and eighty 
thousand CFS you're really loading that lake up.
    So, Doug Martz likes to call Lake St. Clair the heart of 
the Great Lakes.
    I say it's not a Great Lake but a damn good one. But 
reality is it's the "canary in the coal mine," and if we don't 
address what's going on in Lake St. Clair there's no reason to 
believe that we are going to address what's going on in the 
rest of our Great Lakes.
    I've also included a little picture of Lake St. Clair and 
when you look in my testimony and at first you think oh, it's 
low water. No, it's not, that is algae in a great, well, a damn 
good lake, in our Great Lakes. I have hundreds of those 
pictures. It's not surprising that little lakes are 
eutrophying. It is concerning that Lake St. Clair is 
eutrophying. Clearly it's nutrient loaded. Clearly the citizens 
are outraged. Clearly something isn't working.
    What's not working? Too many cooks are spoiling the soup. 
We get a lot of federal guidance. We've got the Army Corps, the 
EPA, Fish and Wildlife Service, the USGS, NOAA, and they all 
have good opinions, but none of them are responsible 
specifically for the Great Lakes, and as a result, too many 
cooks are spoiling the soup.
    And it's not overlapping authority that's my concern, it's 
that there are a lot of things that are unregulated. There are 
a lot of sources of nutrients that end up in our lakes that are 
unregulated and the under-regulated nutrients are everybody's 
problem and they're nobody's problem and the discussions drag 
on for decades.
    Permitting and enforcement is not working. There are pipes 
that are discharged that fall into the NPDES program and the 
states and feds do a good job of following those up. And then 
there are a lot of pipes that are not regulated. And the same 
pollutant from the same source falls out of the regulatory 
program.
    So my recommendation would be assign the responsibility for 
all regulation to one authority. They can delegate it, they can 
share it, but at the end of the day if there's nutrients 
fouling our lakes, one authority should be responsible for it.
    Secondly, as been spoken before, there's virtually no 
monitoring. The monitoring needs to be done and the 
recommendations here I think work.
    And lastly, you have to prevent--to provide funding and 
identify single agencies responsible for collecting, 
maintaining and disseminating that funding. When you started 
with the Great Lakes--or the Clean Water Act there was a great 
construction grant program when you did 75 percent funding plus 
10 percent from the states. Municipalities got stuff done. 
Since that time there is not enough money. We all know the 
infrastructure is failing, the EPA gap analysis says the 
infrastructure is failing, and these same municipalities cannot 
afford to do the things that we know need to be done, reducing 
nutrients, putting in monitoring programs, because they cannot 
afford to build what they have.
    So, please as you work with your staff, and I know you're 
doing certain jobs with the Clean Water Act right now trying to 
clarify some things that have been eliminated from recent court 
decisions, I hope that you'll consider the--finding funding for 
the core programs, it's not the sexy part of the business, 
monitoring, permitting, enforcement. Find the funding for that, 
find the funding to help the municipalities build the 
infrastructure that they need to do, and if you get back to 
the--some of the same principles that we imposed in 1972 and 
recognize that a lot of the nutrients need to be regulated I 
think we've got a half a chance.
    Thank you very, very much.
    Mr. Oberstar. Well, thank you for splendid testimony of 
which I--all of which I've read ahead of time and which I'm 
very appreciative. We'll come back with some questions a little 
later.
    Miss Lynn Henning, Sierra Club, Michigan Chapter, 
Concentrated Animal Feeding Operation Water Sentinel.
    Ms. Henning. Thank you.
    Mr. Oberstar. We welcome a Sentinel, thank you.
    Ms. Henning. Thank you. I'm honored to be here, thank you 
for allowing me to provide testimony.
    I am a family farmer, we farm 300 acres in Lenawee County, 
Michigan. I'm a CAFO Water Sentinel. I've done water monitoring 
for the past eight years downstream from CAFOs. I have a 
quality assurance plan that's been submitted to the Michigan 
DEQ. Within ten-mile radius of our farm we have over 20,000 
cows and 20,000 pigs. They have capacity of storage of over 200 
million gallons of waste.
    I just brought a small map to show you visually, I live 
here where the red dots are, and all these areas are within ten 
miles of my farm. These are the headwaters of Lake Erie.
    We have over 300 documented discharges downstream from each 
one of these CAFOs. We have 12. There's over a hundred and 
sixty-eight chemicals in and around manure that was documented 
by the U.S. EPA in 2001. I'm going to show a very short 
PowerPoint to give you some visuals, maybe.
    First, I'm going to show you that the CAFOs are 
contributing nutrients and other pollutants to the Great Lakes. 
There are over 200 CAFOs in the State of Michigan. We have 
already seen impacts of crypto sporidium, giardia, which has 
been DNA'd by Dr. Joan Rose in our area. At three drinking 
water intakes they have found 11 sites of crypto and eight 
sites of giardia. We have seen algae blooms that we are being 
contacted by the people at lake area. I have brought a sample 
of the toxic blue-green algae from the Lake Erie water keepers.
    We are seeing impaired waters. Downstream from one facility 
we have two open waterways that have been put on the state's 
impaired water list directly from the CAFO. We're seeing risk 
to human health from land-applied pathogens that can reach 
waterways to spread disease, bacteria, parasites, viruses 
through drinking and recreational waters. We're seeing nitrates 
in the ground water.
    We're seeing the soluble phosphorus which contributes to 
the eutrophication, we're seeing acidification which damages 
our forests. Mobilization of aluminum, which is toxic to fish, 
disturbs the nutrient uptake from plants and trees and enhances 
sensitivity to stress factors like drought and fungi, causes 
undesire--changes in species composition which is important to 
our bio diversity. Methane, which will effect our ozone.
    Overdosage of nutrients can lead to heavy metals such as 
copper, zinc and organo chlorines which accumulate in the food 
chain and become a health hazard. We're seeing studies that 
invasive species that they're using zebras, quaggas, round 
gobies and others in constructed wetlands to treat animal waste 
that can then be overflowed into the waterways. We're seeing 
blood worms in our open waterways that can cause hepatitis, 
these are just to name a few.
    And I'll go back to my PowerPoint. This facility, to show 
you some of the problems, it is highlighted in light green 
because it was built in a flood hazard zone. The facility at 
the top discharged into the crick to the--in the dark color 
beside it.
    The facility to the right has an open waterway running 
directly through the production area of the CAFO.
    The X marks where the CAFO is located. This was directly 
discharged into Lake Huron when they had this discharge.
    This is a annotated photo of one of the larger facilities 
in the state and you can look at it over on the side, it will 
show that our biggest problem are field tile. They're using 
liquid waste on fields that if you put grass waterways in it 
will protect surface discharges but it does not protect what 
soaks through the ground and gets into the field tile systems 
that drain to our waterways.
    We're seeing silage leachate, we're seeing underground 
tile, we're seeing storm water containments that are used as 
secondary containment for animal waste and open ditches that go 
to waterways.
    Here is a sample of downstream from a CAFO, we are getting 
E. Coli readings up to seven-and-a-half million milligrams per 
liter. 300 is full body contact.
    This ditch shows the effects of nutrient loading from a 
CAFO that is downstream from the CAFO.
    This is a brand new and empty animal waste storage pit with 
cracks before the animal waste is even put into it. This is a 
concern for our groundwater.
    This is a poultry facility, if you look at the pavement 
below the fans, they were cited twice for discharges of 
contaminants into the waterway because this drains off into a 
catch basin that goes to an open ditch that has tile.
    This is downstream, this is the drainage ditch, we're 
seeing algae blooms where we're having animal waste enter the 
waterways.
    This shows field tile entering the roadside waterway and 
this is one of our biggest contributors to our animal waste 
distribution into the streams.
    This aerial shows flowing straight through the production 
area of a CAFO. It was built in an undetermined flood hazard 
zone and the milk house they literally buried the tile below 
the facility.
    This is not just happening in Michigan, this is happening 
across the United States that they are being sited close to the 
headwaters, over county drains, near waterways with field tile, 
catch basins, dikes, tile risers, that all are pathways for 
pollutions and nutrient to our waterways.
    Thank you very much.
    Mr. Oberstar. Thank you, Miss Henning.
    And again, thanks to all members of the panel that have 
given us very thoughtful and constructive thought-provoking 
testimony.
    I'll begin with Miss Henning. What is the size of the CAFO, 
for those who aren't familiar to the word, Concentrated Animal 
Feeding Operation, usually they--that refers to beef cattle 
fattening operations but in this case is it dairy farms that 
you're talking about?
    Ms. Henning. A dairy farm, yes, sir.
    Mr. Oberstar. And what is the typical--of these large--what 
is the typical size of the dairy herd?
    Ms. Henning. Definition of would be 700 animal units.
    Mr. Oberstar. 700?
    Ms. Henning. In Michigan. The largest facility in Michigan 
holds over 9,000.
    Mr. Oberstar. 9,000?
    Ms. Henning. Yes, sir.
    Mr. Oberstar. That's a factory, that's not a farm anymore. 
I mean, I'm used to 200 head of dairy cows is the average size 
farm in my district with a hundred milking and--and another 
hundred getting ready to be fresh, that's a--that's a big 
operation.
    What containment is there on these facilities to prevent 
bleeding of nutrient from the operation into a drainage ditch 
or creek?
    Ms. Henning. Many of these facilities use an--urban lagoons 
which do have a capacity, I do not have the figures, but they 
do leak into the soil. They are allowed to----
    Mr. Oberstar. It's getting into groundwater you're saying 
and then----
    Ms. Henning. It does leach.
    Mr. Oberstar. --migrating----
    Ms. Henning. Yes.
    Mr. Oberstar. --from there.
    Ms. Henning. It does leach.
    Mr. Oberstar. Thank you.
    Dr. Freeman, you--you made a very telling observation, 
self-policing is fatally flawed. We've seen that. Now the 
policy of self-policing is fatally flawed. We've seen that in 
our Committee.
    When the Coast Guard launched its Deep Water Program they 
were doing just fine until they got moved over into the 
Department of Homeland Security and then things went awry, and 
the result was we had an 11-hour hearing in our Committee on 
the process by which the Coast Guard issued a hundred million 
dollar contract to extend surface cutters for their 
interdiction of drugs and illegal immigration in the Gulf of 
Mexico, and they were told you self-certified, tell us you're 
doing a good job, and they did except they weren't doing a good 
job, and now the taxpayers are stuck with a hundred million 
dollars' worth of vessels that we can't use that are going to 
be scrapped.
    We found self-policing to be a fatally flawed policy with 
the FAA when they issued a customer service initiative to the 
airlines. Tell us you're doing a good job and we'll patty-cake 
with you when you say you've done a good job inspecting your 
aircraft, and now 985 aircraft later pulled out of service for 
reinspection we found it was fatally flawed, 200,000 people 
flew in unsafe aircraft.
    So when you--when you say self-policing on production of 
chemicals that infect the waterways you're--you're right on. 
You're monitoring--your suggestion of--of when you do 
monitoring for air that comes from thousands of miles away 
reminds me of hearings I conducted in the 1980s on Great Lakes 
water quality.
    What was happening, we are inquiring, when point sources 
have been addressed over $15 billion spent throughout the Great 
Lakes by federal and state government and industry alone, and 
yet while the fish were back they were back with cancers, the 
bald eagles' eggs were still not reaching maturity because of 
DDT, and there was no DDT in the environment.
    What we found was researchers have told us it's coming from 
Central America. We were exporting DDT to countries that were 
using--U.S. Companies in other countries that were using it to 
protect their banana plantations and other plantations, and so 
the aerosols were being caught up in the upper atmosphere in 
that--in that stream that goes up the Mississippi flyway and 
being deposited on the Great Lakes in 14 days, in fact, in 
eight days according to the monitoring, faster than the 
Sandinistas could get there as President Regan said, in 14 days 
they'll be on our shores, well the DDT was there, and it was 
killing the bald eagles, the young. And we--and so you're 
right, we need--we need better protection.
    Now I'm interested in your reference to the membrane 
spectrometer and--and the development of a three-dimensional 
flow model of the river. How would you do that?
    Mr. Freeman. Well, actually the U.S. Geological Service is 
the one that is best equipped to do that. We--we need not only 
the model of the river but also of the lake and--and that's 
well within the--the capability of personnel here at the 
University of Michigan. For example, Guy Meadows has developed 
a 3-D model of the lake, and what it does is it allows you to 
back calculate so you detect a substance at position X at time 
Y, you can then back calculate where it came from and then hold 
those polluters responsible.
    Mr. Oberstar. Now the Corps of Engineers has--has two very 
remarkable models, one of the Mississippi River and the other 
of the Chesapeake Bay, and Mississippi River model is in 
Vicksburg, Mississippi where the Corps can--can create flows of 
the river to simulate various conditions that they want and 
what the effects will be of high water, low water, on channels 
and on navigation. Now a good deal of that is done by computer 
modeling so the actual river water flow at Vicksburg is--is 
less used than it once was, but would you say that USGS would 
be the appropriate agency to--to develop such a----
    Mr. Freeman. They've actually taken a stab at it. There's a 
good 2-D model that they have developed here, the Army Corps 
certainly has the capacity to do that. But if you coupled that 
with a device like the membrane induced mass specs, which can 
screen for thousands of chemicals in minutes, then you--you 
have a real chance of catching the polluters.
    You know, I'm reminded of when we had a vinyl chloride and 
a methel ethel ketone spill.
    Mr. Oberstar. Uh-huh (affirmative.)
    Mr. Freeman. The state police flew helicopters over here 
to--to grab bottles of water and then they would fly the 
helicopters back to Lansing and they were able to process two 
samples a day.
    The system that we're proposing would have processed those 
two samples for at--at least a hundred times the chemicals the 
state police were looking at in less than ten minutes.
    Mr. Oberstar. Well, I'm----
    Mr. Freeman. And you're actually doing the monitoring on 
the same scale that the river flows and now you can really 
protect the public. Until you do that you're just doing 
something to be doing it.
    Mr. Oberstar. Well, I think we'll pursue that with Miss 
Miller further on--on the Committee's work as we go through the 
Water Resources Development Act, we just--I think we need to--
to take that idea to the next level.
    Miss Miller.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman. And I 
think I'll pick right up on that because that's been a real--an 
issue I had been working on along with this monitoring system 
and 3-D model as well.
    But, first of all, let me say to all the witnesses you can 
see for all of your expertise and you are an unbelievably 
expert panel, you're never going to pull one over on our 
Chairman, he knows--he's--he has his own national treasure with 
his expertise on water quality and so many other issues under 
the transportation jurisdiction, so it's again, it's delightful 
to have him here.
    But the 3-D model that we've talked about for a number of 
years in the St. Clair River could serve dual purposes and so 
if--if there's a possibility of us authorizing expenditures 
under the WRDA Bill or something, not only would we have the--
and I--I do think the Corps of Engineers could probably build 
this thing, as you mentioned, the one in Mississippi which is--
my dad was an aeronautical engineer and I remember when they 
would do various things at NASA, he always did wind tunneling.
    Well, this is an asymmetrical 3-D model, similar, similar 
concept of course, but not only would you be able to understand 
and pinpoint immediately where any contaminants were actually 
introduced into the waterways and how they transit their way 
down the river, whether that's a sewer spill from a 
municipality or a chemical spill or what have you, that would 
be an invaluable thing.
    But I will also mention on our next panel we're going to 
hear from the Corps about some of the various problems we might 
be having with water levels, but that has also been an impetus, 
it could serve dual purposes. Because as we're aware, there's a 
theory being advanced by one of the foremost coastal 
engineering firms in the--in the hemisphere really, that 
because of the extensive dredging that was done in the St. 
Clair River in the early, mid '60s to open up the upper Great 
Lakes to shipping, subsequent dredging and erosion is causing a 
decline in the water levels so they--so they are theorizing.
    I know that you've been all working with the IJC and as I 
say, I'll guess we'll hear from the next panel, but that would 
be a tremendous way to compliment the monitoring system that we 
have so I think that is very important.
    I don't know if you have any comment on that. Would you 
agree with that or----
    Mr. Freeman. I completely agree with you. Not only your 
comments about the 3-D model but your comments also about the 
Chairman, he can serve on our faculty.
    Mrs. Miller of Michigan. He could teach your classes, I 
think that's true.
    I might mention then, ask a question about the monitoring 
system here, and any of you that might have the expertise to 
answer, I was--I think Dr. Freeman was mentioning about the EPA 
and the still--the spill data that they had and that they were 
only able--they only had four fines, the EPA only had four 
fines from '94 to '04, I was trying to take some notes while 
you were talking, and can only test for 20 to 30 percent of the 
potential chemicals. Now our monitoring systems have 29 
specific chemicals that they can monitor for as well.
    Either yourself or Mr. Ridgway I suppose, do we have any 
incidents that we can report back to the full Congress of how 
the monitoring system has worked thus far, best practices, 
perhaps an incident where we have identified something and then 
how did we respond.
    Mr. Ridgway. It's interesting, the challenge right now is 
getting the regulated and regulators to agree on some numbers 
because when you have no data you don't care. But things like 
benzene, which we're monitoring regularly, is going up and down 
because you can measure it and you--you know, can be coming 
from boats, can be coming from a spill, and so at this point 
we're collecting a great deal of data, we can see changes in 
that data and we're working with folks, and right now there's 
something called the MCL, which is the Mean----
    Mr. Stow. Maximum Contaminant Level.
    Mr. Ridgway. Yeah, Maximum Contaminant Level, and we're 
saying that anytime you hit 90 percent--or, well, 10 percent of 
the MCL you notify the operator, let the operator know 
something's going on at the water plant, 50 percent you notify 
the operator and the drinking water people at the MDEQ, and at 
90 percent you do those two plus the spill response folks. That 
trigger is automatic. That--the computer, when it hits that 
number, it goes--it is paged, people's cell phones are text 
messaged and it says you got benzene at this number at this 
location.
    As we're tweaking those, sometimes the alarms are too 
often, sometimes the alarms aren't often enough, so we are 
measuring stuff, we're getting good data, and now we're just 
trying to decide how to manage the data we're collecting.
    Mrs. Miller of Michigan. I think it is interesting that, I 
was mentioning this to the Chairman earlier, that as a result 
of us putting our monitoring system in place and chemical 
companies or others that might introduce the contaminant into 
the--into the waterways, and we've had rather horrific 
experience over the last several decades with the amount of 
incidents of contaminants into our waterways, now that they are 
aware that the monitoring system is up and is running and 
samples are being taken every 15 minutes, and that it is part 
of the notification protocol, and we are continuing to perfect 
it, but not only would we be able to understand rather 
immediately in real time that there has been something 
introduced harmful into the water supply, and we have the 
ability perhaps to actually figure out where it came from, I 
don't know if it's serendipity or coincidence or what have you, 
but guess what, the amounts of chemical spills have gone down 
dramatically.
    Mr. Ridgway. If there's a radar gun on the expressway, I 
think I'll drive slow.
    Mrs. Miller of Michigan. That's exactly--that's a very good 
analogy, a radar gun on the expressway.
    But, and I also want to say hats off to our wonderful 
Canadian neighbors because they have developed as well, their 
SWAT team, that's what I call it, their SWAT team within the 
Environment of Ministry there, who is also doing a tremendous 
amount of policing, and we have to continue to work together on 
that.
    I'd also like to ask Mr. Snow I think, Stow, was telling us 
a little bit about the study that NOAA is doing in the Saginaw 
Bay and I'm somewhat familiar with that. I know you have almost 
$4 million I believe that's been authorized for that.
    Could you just flesh out for us a bit exactly what you're 
looking at because this muck issue is so--such a large issue in 
the Saginaw Bay. Is that enough resources to do an adequate 
study? When do you think you might have some findings that are 
of consequence and how is all that going?
    Mr. Stow. Okay. We are currently in year one of the study 
and in year one we're focusing on sort of gathering up the data 
that exists on the system that had been collected in the past.
    When the original Great Lakes Water Quality Agreement was 
established in the 1970s there were four mathematical models 
that were used to help support this effort. One of those models 
has been updated over the years now, includes processes 
associated with zebra mussels and things like that, and so one 
of those original models is a--is a part of this project, the--
the updated version.
    In year one we're essentially focusing on developing some 
new approaches, looking at the existing data, and starting a 
light survey out on Saginaw Bay, in fact, today's the first 
day, in principal there's a boat out there right now that's 
doing some initial monitoring. That--that will be effectively 
what we accomplish by the end of this year.
    Starting next year is our much more intensive field work--
oh, and I should say we are also beginning some monitoring in 
the watershed looking at flows and concentrations of phosphorus 
in the tributaries into the Saginaw River, so all of that's 
occurring essentially as we speak.
    Starting next year we'll have some more intensive field 
years, we--where we'll be out on a regular basis looking at 
such things as the phosphorus concentrations, the water--or the 
light penetration to the bottom, trying to establish some ways 
where we can measure the density of the algae that grows on the 
bottom, that's not a particularly easy thing to do.
    And, in fact, our most recent surveys looking at the 
coverage of the zebra and the quagga mussels are from the late 
1990s, it's not like there's somebody out there every year 
doing that sort of activity, so we'll have some better 
estimates on the degree to which they've colonized the bottom 
of Saginaw Bay and may be influencing the dynamics, we'll see.
    So we're in the very early stages right now, as I say, 
monitoring is just beginning, we're initiating our citizen 
monitoring, we're working with DEQ representatives to get that 
up and going by hopefully the beginning of June, we're--we're 
in the ramping up stages as we speak.
    Mrs. Miller of Michigan. And you'll have some sort of 
reporting mechanism so we'll know as you're progressing?
    Mr. Stow. Yes. We're working, as I indicated, that a couple 
of investigators on the project are representatives from the 
DEQ and the DNR, they're active--actively involved in the 
project, and they will be gathering information as it's 
revealed and as we learn more.
    Mrs. Miller of Michigan. Just one other question, in 
particular, since we're talking about the possibility of the 3-
D model being authorized under the WRDA Bill as well.
    I think everybody talks about monitoring, how important it 
is. I think we agree, there's a consensus that monitoring is 
absolutely critical.
    I think it was Dr. Richards that was mentioning what is the 
cost, is it really expensive, yes, but, you know, what is the 
cost of not doing such a thing, and just throw out to the panel 
would you generally agree that the Congress should perhaps look 
to our model or some model to replicate through the Great Lakes 
basin, do it for all of the Great Lakes states for having 
adequate monitoring system, and do you think this is one we 
should look at or is there a better system or--and I don't know 
if you have any general idea of what the cost of such a thing 
would be throughout the Great Lakes but just----
    Mr. Stow. One of the----
    Mrs. Miller of Michigan. --certainly need to get started on 
it.
    Mr. Stow. One of the limitations with these sorts of models 
is, for instance, in the--when we developed the Great Lakes 
Water Quality Agreement I mentioned there were several models 
used in parallel, and what tends to happen is we develop a 
model, we make some decisions, and the model kind of gets 
pushed off into the background.
    One of the particular features of this project is that we 
have one of these models that has been maintained over the 
years and I think having models that are maintained and updated 
as we get new information is essential for this sort of 
activity.
    In particular in this project we're going to--there's quite 
a debate among modelers about the best way to model different 
things and when we put this grant together to--or this proposal 
together to get this grant we didn't try and justify one kind 
of model as being the absolute best, we said we're going to try 
a couple at the same time and compare them as we go along, so 
models are essential, they allow us to extend what we know and 
part of the trick I think is having models that we work with 
over a period of time and update as we learn more.
    Mr. Richards. I'd like--I would like to second that general 
thought. I think that monitoring can be crucially important in 
informing the models and allowing us to determine whether the 
models are really giving us a proper story or not. If you have 
to develop a model and you don't have any data to test it with 
it may be telling you the totally--totally wrong answer but you 
have no way of knowing it, so modelling and monitoring should 
go--go hand in hand and--and feed back upon each other.
    I think, if I'm not mistaken, some of the folks in 
Chesapeake Bay have gotten into some fairly hot water because 
they were projecting that they were at such and such a place in 
saving Chesapeake Bay and somebody went out and looked and 
said, no, you're not, and it turned out all they were doing was 
looking at the projections from the model and presenting them 
as if they were reality without the--without the monitoring 
to--to ground truth that, they were playing a rather dangerous 
game, so I think that there's a need for both. They both do 
different things but they work very nicely together and we need 
to support both of them.
    Mr. Freeman. Beyond that they--they also need to inform 
action and decisions and decision makers. I'm reminded of Doug 
Martz's experience with E. Coli counts where for 20 years 
health departments and others collected E. Coli, dutifully 
filed the counts away and nothing happened.
    And so what I like about the system that Jim Ridgway's 
group has put together is that it does have some notification 
and it can inform decision making and action. We--we can't do 
these things as ends unto themselves, they have to drive 
action.
    Mr. Ridgway. And I would just add one other piece and 
that's I--I would ask you to decide who's going to baby-sit 
this model for years to come. The area in which you are asking 
for a three-dimensional model has been modelled at least three 
times that I'm aware of in the last 20 years by different 
groups. The studies done answer a couple questions and it goes 
away.
    If you were to decide, I don't care who it is, NOAA, this 
is the person that is responsible for handling this model 
forever and then allow other people to use it and put data in 
and make decisions and all that kind of stuff, but you need 
someone to maintain it over the years or the study will be done 
and it will go away.
    Mr. Freeman. Similarly, monitoring data needs to be 
available, catalogued, made accessible to--to researchers and 
agencies in perpetuity.
    Given the massive flow, and--and Jim's right about it 
starts here and then it goes over, you know, Niagara Falls, we 
really should have a center that maintains all of this 
information for the Great Lakes, all of the monitoring data 
that are collected by all of the agencies, and we don't have 
anything like that. So we get isolated reports here or there, 
12 towns combined sewer overflow discharged today.
    Mr. Ridgway. I suspect this panel has the best collection 
of data anywhere, but it's in six different little files, and 
what I have Dr. Lehman doesn't know about, and what Dr. Lehman 
has I don't know about, and if there isn't a central 
depository, every time you start a study the first thing you do 
is start trying to collect what data is out there.
    Mr. Oberstar. Well, thank you. That's--and we'll come back 
to Miss Miller in a few minutes, we're going to alternate back 
and forth here a little bit.
    You gather all this information as you say and it's 
deposited in--in different receptacles and studied and all too 
often scientists turn to each other and say this really is 
polluting, you know, this is awful, terrible, they agree with 
each other but somebody has to do something about it. The end 
of it is doing something about it and taking an enforcement 
action, building a treatment facility or upgrading that 
treatment facility, otherwise humans inevitably become the 
repositories of all the toxics we discharge into the waterways.
    And again I'm reminded of a hearing conducted on the Great 
Lakes Water Quality Agreement with Canada and--and the progress 
on the--of the Clean Water Act of 1972. Dr. Henry Lykers (ph), 
a microbiologist, member of the governing council of the 
Aquasagany (ph) people at the outflow of the Niagara River, 
Mohawk Indians otherwise known, said that in the early--in the 
late '70s, early '80s, he had been noticing reports from people 
of--of his community of three times the national average 
spontaneous miscarriages, three times the national average 
tremors in joints, elbows, wrists, hips, knees, mental 
disorders and--and rising cancers that they'd never experienced 
before.
    And he undertook to do surveys of--of various scientific--
given his scientific experience and background and training, he 
found they were all eating fish for 3,000 years they'd been 
eating fish.
    Fish are the repositories of the Niagara River, the outflow 
of all the Great Lakes, so they have three times the national 
average of everything of--of PCBs and dioxins and mercury, 
cadmium and lead, and so they stopped eating fish. And I said, 
"Was there any health consequence from that?"
    "Oh, yes. Yes," he said. "Our people now have twice the 
national average of diabetes, arteriolosclerosis, 
cardiovascular disease and other--because they're getting their 
protein, they're getting their food energy from other sources 
that were not healthy for them," so we create all sorts of 
problems that ultimately people become the bio accumulators and 
not just the fish or the plant life.
    So to get--get to the end of this, to stop this, we have to 
have--you have to have pollution prevention and pollution 
treatment.
    Now, Mr. Ridgway, you said--and I appreciate, you looked to 
Congress in 1972 and you delivered. I was chief of staff of the 
Committee at the time, we were ten months in conference with 
the Senate fashioning the Clean Water Act. It was a vigorously 
heated, debated both sides working toward the same objective 
but from different perspectives but we got there, we did it. 
Then it deteriorated when the--when the grant monies dried up.
    Now, as I said, we--we passed in the first session of this 
Congress, legislation to provide a billion six hundred million 
dollars to help communities with separate and combined storm 
and sanitary sewer overflows, but you also said we have eight 
agencies overseeing this work on the Great Lakes. Do we need a 
coordinating authority?
    Mr. Ridgway. God, yes. Can I be more clear?
    The problem you have right now is it----
    Mr. Oberstar. Well, the day after Pentecost, yes. We don't 
want--we don't need the tongues of fire descending on eight 
agencies, all speaking in different tongues, maybe they need to 
speak with one tongue.
    Mr. Ridgway. You have a number of people, many of who have 
taken the responsibility to do their job. Congress has asked 
different federal agencies and the locals, but it's like--it's 
like taking a test, now the analogy here to say is you got a 
bunch of locals and the locals that are the "A" students are 
taking the test and doing a good job, and right before you turn 
the test in, your teacher says take your exam and hand it to 
the guy next to you, and you're graded by the person next to 
you.
    The good work you do goes downhill and you receive the bad 
work of the student uphill and until you make all of those 
people, all of the locals, held to an accountable level, and 
that means farmers and waste water plants and people's homes 
on--and I'm not saying you regulate it away, I'm just saying we 
have to address all sources--I suspect over 50 percent of the 
nutrients getting into the Great Lakes are unregulated or under 
regulated.
    Mr. Oberstar. How often do these, in your experience, and 
any members of the panel, how often do these eight agencies 
talk to each other?
    Ms. Henning?
    Ms. Henning. I'd like to respond to that, because when I 
started water monitoring I would contact the locals and would 
get no response. As I got into the monitoring and being shoved 
aside I started addressing the U.S. EPA, the Michigan DEQ, the 
local health department, the drain commissioner, and then we 
finally started seeing action by making the communication line 
amongst the agencies to let them all know what was going on. So 
I felt they were not informing each other, there was no 
communication.
    Mr. Oberstar. Some years ago I--when I chaired the 
Investigation's Oversight Committee or Subcommittee, we--we 
looked at transportation provided by numerous federal 
government agencies who were not primarily transportation 
agencies, we found a hundred and thirty-seven agencies 
providing transportation, the cost of over a billion dollars a 
year, and they weren't talking to each other in three different 
departments of government.
    So, this would be before your service in Congress, Bill 
Klinger from Pennsylvania, the ranking Republican Member on the 
Committee and I, we held their feet to the fire and--and by 
golly they came to the--to the second hearing we held and said 
well, Mr. Chairman, we've decided as you suggested to have a 
coordinating council and talk to each other and eliminate the 
duplications and the overlaps.
    And maybe that's what we need here on the Great Lakes to 
have--and--and who and how, how to create that is something 
that we'll have to address.
    Mr. Freeman. Could you include in that council our Canadian 
friends as well since whatever they discharge makes it over on 
our side in a matter of a few minutes?
    Mr. Oberstar. Well, I'll discuss that at the U.S.-Canada 
Parliamentary Group meeting later this week. We can't legislate 
them into the picture but we can invite them in under the U.S.-
Canada Great Lakes Water Quality Agreement.
    Professor Lehman, what is the role of phosphorus and plant 
growth and how--how can we--what are the best means of 
eliminating it from the water column?
    Mr. Lehman. Well, phosphorus is an--is an essential 
mineral, it's--it's a component of DNA, RNA, and components of 
cell membranes, so it's--it's absolutely essential for life. 
And organisms contain about one atom of phosphorus for every 
roughly hundred atoms of carbon that they contain but they 
can't get away with--they can't live without it.
    Now, in terms of removal from the water column, frankly 
organisms, like micro algae, are extraordinarily successful at 
removing phosphate from the water column, hence their excessive 
growth at times when phosphorus is--is supplied to them in 
luxurious quantities.
    There are--there are--the best way to--to prevent it from 
getting into the water columns is to treat it near its source, 
either provide an improved means to the infrastructure at which 
phosphorus is removed at waste water treatment plants and if 
you correctly recognize the--the infrastructure is failing all 
across the--the rust belt, and it is--it is possible for some 
improved management practices and agriculture and--and 
industries to--to reduce it at its source.
    Mr. Oberstar. In sewage treatment facilities, is there--are 
there improved means of treatment beyond tertiary to address 
phosphorus removal?
    Mr. Lehman. Well, there are a variety of techniques that 
would all fall under the category of tertiary treatment. You 
may be--you may be thinking of a particular chemical 
precipitation where iron is usually used to----
    Mr. Oberstar. Right.
    Mr. Lehman. --complex with the phosphorus and the--the 
particular limitation there is that to remove the first few 
grams of phosphorus it's relatively inexpensive. To remove the 
very last few grams it becomes progressively more and more 
expensive. But there--there are new technologies based on--on 
membrane uses and not just biomembranes but chemical membranes.
    We had a presentation actually at the final meeting of the 
Blue Ribbon Commission on Lake St. Clair and that's--that is 
not my area of engineering expertise, I mean, but--but we 
certainly heard about these techniques.
    Mr. Oberstar. Well, I have many more questions but I'm 
going to yield to the gentlewoman from Michigan, and then we 
have to get on to the next panel, but I certainly am grateful 
to all of you for your splendid contribution.
    Miss Miller.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman. And I 
will just follow-up with a quick question, because we are 
running out of time, we want to hear from our next panel, with 
the Colonel from the Corps of Engineers, and we appreciate all 
of you being here, but I think I'll follow-up with Professor 
Lehman just briefly.
    As the Chairman was asking about how we might actually be 
able to address the problem of nutrients and I was trying to 
take some notes when you were talking as well about the Blue 
Water Committee, which I do sit on, and you mentioned about the 
data we had from '04 and '05, et cetera.
    Mr. Lehman. Certainly.
    Mrs. Miller of Michigan. But you said something about the 
nutrient level in the Clinton River is 50/50? What did you mean 
by that?
    Mr. Lehman. What that is we--we talk about two types of 
sources by which phosphate enters water bodies, one is the 
point source is discharged from the end of a pipe and the other 
is non-point source which could be overland runoff, runoff from 
parking lots, streets and so forth, and the--the analyses that 
I did by two--two different independent ways indicate that if 
you look at the total phosphorus content of that Clinton River 
and say which is more important, is it the point sources that 
are contributing the majority or is it the non-point sources. 
It turns out the breakdown is almost exactly 50/50.
    And--and my point about that was that if you focus--if 
you--if you aim your--your attention at either one of those 
sources and you have a viable means for reducing the 
phosphorus, you--you--you have two equally good strategies by 
which you could reduce phosphate concentrations.
    Mrs. Miller of Michigan. If you were the Chairperson of the 
Clinton River Watershed and you were making a recommendation to 
the municipalities within the watershed on several things that 
they could do rather immediately to help the health of the 
Clinton River, what would they be?
    Mr. Lehman. I would have them look pretty carefully at how 
their waste water treatment plants are operating and see if 
they can improve their--their effectiveness. They would get an 
absolute improvement by--by any kinds of increases in the 
efficiencies of phosphorus removal that they can implement.
    Mrs. Miller of Michigan. I see.
    Well, thank you very much Mr. Chairman, and I appreciate 
all of the panelists again coming today, you really are a 
fantastic reservoir of information and we certainly appreciate 
all of your testimony, thank you very much.
    Mr. Oberstar. You've given us much thought--food for 
thought for follow up on the testimony you've given today. 
Thank you very, very much.
    Our second panel consists of Lieutenant Colonel William 
Leady, he's the Commander of the Detroit District Office of the 
U.S. Army Corps of Engineers. He testified before the 
Subcommittee at Green Bay, our hearing there on water quality 
issues and we welcome you, Colonel. I read your very 
thoughtful, thoroughly prepared statement with excellent 
history on--on the Great Lakes and on the St. Clair River issue 
and I welcome your testimony.

  TESTIMONY OF LIEUTENANT COLONEL WILLIAM J. LEADY, U.S. ARMY 
    CORPS OF ENGINEERS, DETROIT DISTRICT, DETROIT, MICHIGAN

    Colonel Leady. Good morning--or good afternoon, sir.
    Chairman Oberstar, Members of the Subcommittee, I'm 
Lieutenant Colonel Bill Leady, Commander of the Detroit 
District U.S. Army Corps of Engineers. Thank you for the 
opportunity to testify before you today on the lake levels in 
the Great Lakes.
    In supporting the nation, the U.S. Army Corps of Engineers 
provides expertise to monitor and forecast Great Lakes water 
levels, and technical support to the International and Joint 
Commission, or the IJC, by regulating outflows of Lake Superior 
and Ontario. Lake levels directly affect the natural 
environment, commercial navigation, recreational boating, 
shoreline property, municipal water intakes and many other 
important features.
    Before I discuss current lake levels I would like to 
provide some background on the main factors that affect lake 
levels. To illustrate this, I would like to direct your 
attention to the Hydrologic Components chart which you have in 
front of you, sir and ma'am.
    The information on this chart uses long-term averages and 
does not represent any specific period. The poster illustrates 
four components, precipitation onto the lake in red, runoff 
from rivers and streams in orange, evaporation from the lakes' 
surface in yellow, and flow from one lake to the next in blue. 
Man-made diversions are also shown.
    The relative importance of each of these factors shifts as 
the water flows from the basin's headwater of Lake Superior to 
the outflow on the St. Lawrence Seaway. For example, 57 percent 
of Lake Superior's water is precipitation that falls directly 
onto the lake whereas on Lake Ontario this accounts for only 7 
percent of the inflow.
    I would like to note that Lake Michigan and Huron are, for 
many purposes, treated as a single lake since they are joined 
at the Straights of Mackinaw and rise and fall together.
    There are five man-made diversions on the Great Lakes 
basin. The Long Lac and Ogoki diversions which bring water into 
Lake Superior, the Lake Michigan diversion at Chicago which 
removes water for water supply, sewage disposal and commercial 
navigation. The Welland Canal provides a shipping route around 
Niagara Falls and the New York State Barge Canal diverts a 
small amount of water from the Niagara River. The last two 
diversions stay within the basins so they don't affect the 
overall Great Lakes.
    The water levels on the Great Lakes fluctuate in three 
distinct cycles: Short-term, annual and long-term. Water levels 
fluctuate on a short-term basis usually due to winds and 
changes in barometric pressure. These changes can last a few 
hours to several days. The lakes also fluctuate on a seasonal 
cycle. On the Great Lakes, water levels decline to their lowest 
levels in the winter because more water leaves the lake due to 
evaporation than enters during this period. As the snow melts 
and spring precipitation increases, the lake levels rise. These 
factors contribute to more water entering the lakes and waters 
raise to their peak during summer months.
    Long-term fluctuations occur over periods of consecutive 
years. Continuous wetter and colder than average years will 
increase water levels while warmer and drier than average years 
will cause levels to decline. Ice cover is a very significant 
factor affecting lake levels because ice acts as a lid 
preventing evaporation which is a major source of water outflow 
on the Great Lakes.
    The IJC, with the Corps as one of the supporting agencies, 
does have some ability to influence relative lake levels.
    Lake Superior outflows have been regulated by the IJC since 
1921 by the IJC's Lake Superior Board of Control. The objective 
of the Lake Superior outflow plan is to have a relative balance 
between the long-term average of Lake Michigan, Huron and Lake 
Superior. Regulation of Lake Superior's outflow has a small 
effect on the lakes but to a far less degree than the effects 
of precipitation and evaporation.
    Outflow from Lake Ontario is managed by the IJC St. 
Lawrence River Board of Control. The criteria for regulating 
outflows recognize the need of three major interest groups: 
riparian property owners, hydropower, and commercial 
navigation.
    Now I'll turn to historic water levels on the Great Lakes 
and current conditions. The Corps began monitoring water levels 
in the 19th Century. The Great Lakes Water Levels poster shows 
these long-term fluctuations from 1918 to the present. On these 
graphs, the blue line represents the actual monthly average 
level and the red line represents the long-term average.
    Several observations about Great Lakes water levels become 
apparent when the information is presented in this format. 
First, the lakes are rarely at their average level. Also, even 
at this scale, the average annual cycle, with lakes peaking in 
the late summer and dipping to the lowest point in the winter 
is apparent.
    Each lake is independent of the other lakes. That is to say 
that one lake may be in an above average period while at the 
same time another lake may be at a below average period and the 
third lake can be near average.
    Lastly, from 1918 to the present, there is not a definite 
or predictable pattern of level fluctuations on any single lake 
or the system as a whole.
    For the reasons I mentioned earlier, water levels on the 
Great Lakes have gone through periods of high periods and low 
periods over the last 90 years. Following a period of above 
average levels across the lakes from the 1970s through the 
1990s, the upper lakes have experienced low levels since the 
late 1990s. The increased water temperature, reduced ice cover, 
reduced precipitation and increased evaporation have 
contributed to the decrease in the upper lakes. Lake Superior 
and Lake Michigan-Huron are currently significantly below 
average while Lake Erie and Lake Ontario are currently above 
average.
    There is some good news. A very active 2007-2008 winter 
storm track brought abundant amounts of snow to the Great Lakes 
basin. Also, ice cover formed much earlier over the northern 
lakes, and was much more extensive, limiting evaporation. Soil 
moisture across the Great Lakes basin is above average. These 
conditions hold promise for increased water levels on the Great 
Lakes this coming spring and summer.
    Lake Superior has been below average since 1998 and is 
currently in its longest period below average in the 1918 to 
2000 period of record. The lake set new monthly lows in August 
and September of 2007 and these records were brought on by 
drought conditions across the basin for the previous 15 months. 
Then the basin was inundated with ten inches of rain and water 
levels rose accordingly 9 inches. Lake Superior is expected to 
remain below average for the next six months although it will 
be 8 to 15 inches above last year's levels.
    Mrs. Miller of Michigan. That's good.
    Colonel Leady. Lake Michigan-Huron has been below average 
since 1999 and is currently in its second longest period below 
average since the period 1918 to present. The lake is currently 
below last year's levels. It will likely remain 12 inches to 16 
inches below its record lows and 15 to 18 inches below its 
long-term average. Let me correct myself. It will likely remain 
12 to 16 inches above its record lows but 15 to 18 inches below 
its long-term average for the next six months.
    Lake St. Clair has fluctuated around average for the last 
two years. The April monthly average was two inches below 
average and one inch above last year's level. The forecast for 
the next six months shows the lake will remain slightly below 
average and near last year's levels.
    Lake Erie has fluctuated around average for the past two 
years. The April monthly average level is seven inches above 
average and three inches above last year's level. The forecast 
for the next six months shows it will remain near or above 
average.
    Lastly, Lake Ontario. Lake Ontario has fluctuated around 
average for the last two years but ended 2007 slightly below 
average. Since December 2007, the lake has risen significantly 
and in April the monthly average was 12 inches above average. 
The forecast for the next six months shows Lake Ontario will 
remain above average.
    Another issue that received recent attention and possible 
cause for lower lake levels on Lake Michigan-Huron are flows in 
the St. Clair River. In order to answer these questions about 
the St. Clair River over time and the impacts on the rest of 
the system, the IJC has included these issues in the 
International Upper Great Lakes Study. The study will re-
evaluate the regulation of Lake Superior and is investigating 
issues on the St. Clair River.
    The Corps believes the IJC study is the appropriate vehicle 
to investigate the Lake St. Clair River issues. The Corps is 
one of several agencies supporting this study.
    To close, I would once again like to thank you Mr. 
Chairman, for allowing the Corps of Engineers the opportunity 
to come before this Subcommittee and discuss the Corps' role in 
monitoring and forecasting Great Lakes water levels.
    I would be happy to answer any questions that you or 
Representative Miller may have, sir.
    Mr. Oberstar. Well, thank you very much Colonel, for 
participating today and--and again, contributing to the work of 
the Committee.
    The issue of low water levels was addressed in the Water 
Resources Development Act Bill that our Committee moved in the 
first session of Congress and the Senate eventually did, 
President vetoed it, Congress overrode the veto, unfortunately 
the administration didn't include any of the projects in WRDA 
Bill in its fiscal year '09 budget. Among those issues is 
dredging of the channels and the harbors on the Great Lakes.
    Our iron ore carrying ships from Minnesota and from the 
Upper Peninsula of Michigan are going out as much as 7500 tons 
light because from Minnesota they can't pass through the St. 
Mary's River because the 18 inches low water level compared to 
normal, and some of the lower lake harbors were as much as 40 
to 50 inches low so that ships had to go out light, that means 
three extra voyages or more per vessel per season raising the 
transportation cost of iron ore to our lower lake steel mills. 
So we directed accelerated dredging to be done in the WRDA Bill 
and we're hoping in the appropriation process they can find 
money to do that.
    I want to touch though very specifically on the St. Clair 
River issue. The compensating--weir compensating facility and 
the weirs.
    When is the IJC likely to complete its ongoing study?
    Colonel Leady. Sir, the IJC has accelerated the study. It 
was originally a five-year study, which began last year. But 
the issue with the St. Clair River has been accelerated and 
moved forward in priority because it is such an important issue 
and that information should be done by the end of next summer, 
next fall sir, the fall of 2009.
    Mr. Oberstar. Now you note that the--in your testimony that 
the issue of bottom sediment material removal in the river goes 
back into the mid 1800s and to the early part of the last 
century, but at one point compensating works in the 1930s were 
authorized and then deauthorized in the '70s.
    What would be the cost estimate of weirs developed in the--
can you just give us a horseback estimate of what that would 
cost and how much of a structure would be involved to install 
such facilities in the St. Clair River?
    Colonel Leady. Sir, I'll try to----
    Mr. Oberstar. I'm not going to hold you to--come back in a 
year and say "You told us," but I just want a horseback 
estimate.
    Colonel Leady. That would be a project that would be 
similar in scope to building major locks. It would be a very 
expensive thing.
    Mr. Oberstar. On the order of a couple hundred million 
dollars.
    Colonel Leady. It could be that high, sir.
    Two things I would like to point out with this issue, 
sometimes they're not clear, there are two separate but related 
issues. One is what the IJC is looking at now which is what the 
Baird Report, or what some people refer to as the Georgian Bay 
Association Study, states that there is an ongoing problem in 
the St. Clair River that the bottom of the river is eroding and 
more water is flowing out of Lake Michigan-Huron, you know, 
every year, because the river is getting larger or the bottom 
is eroding. That issue is being looked at by the IJC.
    The effects of dredging on the Great Lakes, the 
establishment of the 27 foot--first the 25-foot channel, then 
the 27-foot channel through Lake St. Clair and through the St. 
Clair River and certain stretches of the Detroit River, that is 
not being looked at by the IJC because the IJC has already 
looked at that in the 1930s and in the 1960s with Corps help 
and help from many other agencies, and the effects of that were 
determined to be lowering the Great Lakes--excuse me, lowering 
Lake Michigan-Huron by about seven inches. That is fairly 
undisputed by the scientific community, to include the Corps of 
Engineers, so that is a separate issue. The compensating weirs 
that were issued or authorized in the 1960s and in the 1930s 
when those deepenings were done, that was to compensate for 
that, so the IJC is looking at a slightly different related 
issue: is it the bottom of the river now eroding or is it 
changing shape that allows more water to move through the St. 
Clair River.
    Mr. Oberstar. Well, we--we have another Water Resources 
Development Act under consideration by the Subcommittee and I 
am looking to move a bill by mid summer or certainly before 
September, and if there is some--some recommendation from IJC 
from the Corps that we can include, I know Miss Miller would--
would be happy to sponsor that.
    Miss Miller.
    Mrs. Miller of Michigan. You're absolutely right, Mr. 
Chairman. I'd be delighted to sponsor it and we are looking for 
some recommendation from both the Corps and the IJC on how we 
might proceed with that.
    You mentioned Colonel, your best guesstimate, about what 
something compensating works would cost for that, but isn't 
part of that, I mean, at least I have heard this discussed, is 
actual weirs out in Lake Huron before it comes into the St. 
Clair River as well, is there some talk about that or----
    Colonel Leady. The actual proposals that took place in the 
1970s were weirs within the river themselves and ma'am, I'm not 
clear whether they would be fixed weirs or they would be 
adjustable weirs, because we've gone through high water periods 
like we did in the 1970s and 1980s and early 1990s so during a 
high water period would you need the ability to adjust those 
weirs would be a question.
    And one point I'd like to add to, is when I said seven 
inches, that is the effect that is not widely disputed, of the 
Corps, the federal dredging of the channel. Other human 
activity, which is slightly less documented, is estimated to be 
an additional seven or more inches, so a total effect on the 
level of Lake Michigan and Lake Huron is around 14 or more 
inches from human activity through the late 19th and 20th 
Century.
    Mrs. Miller of Michigan. You know, just discussing these 
weirs, I'm aware that at some point in the past the Corps of 
Engineers had talked about actually doing compensating works in 
Lake St. Clair as well with weirs.
    I don't know if you're familiar with that or why they never 
did it or is there any use to be talking about such a thing now 
to compensate for the decrease in the water levels there?
    Colonel Leady. I am not familiar with it ma'am, but the 
effect on where you put the weirs would certainly have an 
effect on whether it is upstream or downstream of Lake St. 
Clair. I am not aware of anything that was ever proposed on 
Lake St. Clair, it may have been done, I just may not be aware 
of it, ma'am.
    Mrs. Miller of Michigan. Yeah. Just one other weir 
question, since we're on the weirs here but, at--in the City of 
Mount Clemens at Shadyside Park at the mouth of the spillway, 
talking about the Clinton River----
    Colonel Leady. Yes, ma'am.
    Mrs. Miller of Michigan. --back in the '50s there was a 
man-made diversion which you don't list, and perhaps it's such 
a small diversion that we don't talk about it, but you're 
essentially diverting the flow of maybe not the water but the 
flow of the Clinton River, we now divert it down the Clinton 
River spillway rather than letting----
    Colonel Leady. I'm familiar with that area, ma'am.
    Mrs. Miller of Michigan. --rather than letting the water go 
where Mother Nature wants it to go, and I think that has--I 
mean, you'd never be able to build something like that today, 
and it is controlled by the--not the Corps but the authority 
there, the drain authority, Macomb County Drain Authority I 
think, but they have an inflatable weir there that they inflate 
depending on the--on the water levels, I'm not sure if you have 
any comment about that. I don't know whether we should even 
have that weir and some people talk about that we should not 
have a spillway there anymore either.
    Colonel Leady. Ma'am, I'm familiar with that location, I 
know it was constructed by the Corps and turned over to the 
city, I would agree with your comment; it would probably be 
difficult to do today.
    I have been asked what would it take and how long it would 
take to do this and my response was that an Environmental 
Impact Statement, which would necessarily be done, would be at 
least a two-year process because it would effect so many people 
on the shores of Lake Michigan and Lake Huron, so that itself 
would be a very long detailed process.
    Mr. Oberstar. Would the gentlewoman----
    Mrs. Miller of Michigan. Certainly, of course.
    Mr. Oberstar. What is the depth of the river at that--at 
this point that we're talking about?
    Colonel Leady. The depth of the river varies significantly, 
sir. Right under the Blue Water Bridge, it is as deep as 60 
feet, at other areas it is less than 20 feet.
    In major sections of the river, the Corps, in the 1920s 
dredged it to 25 feet to allow navigation, so it was obviously 
less than 25 feet there, and then the 1960s again the Corps 
deepened it to 27 feet, sir.
    Mrs. Miller of Michigan. Just one other question about 
diversions and man-made diversions.
    I know you were talking about the five man-made diversions 
in the--in the basin, in the Great Lakes basin, two of which 
you said didn't really impact----
    Colonel Leady. Yes, they----
    Mrs. Miller of Michigan. --the water levels because it 
returns it to the basin.
    Colonel Leady. In fact, Niagara River, but they take water 
that would have gone through the Niagara River and put it into 
Lake Ontario anyway.
    Mrs. Miller of Michigan. Another project that could 
probably never happen today, but happened about a hundred years 
ago, was the change in the direction and the flow of the 
Chicago River----
    Colonel Leady. Yes, ma'am.
    Mrs. Miller of Michigan. --for the Chicago Diversionary 
Canal of which I do understand has gone through the Supreme 
Court and I get all of that, but when you think about 1.4 
billion, I think that's the number, gallons of water each and 
every day that is being diverted outside of the basin because 
it's being used for sanitary purposes, for drinking water, et 
cetera, but also to be floating the barges in the Mississippi 
and when water diversion is such a huge issue in the Great 
Lakes I just raise that as--I don't know if you have any 
comment or if your----
    Colonel Leady. Well, ma'am----
    Mrs. Miller of Michigan. --your superiors would allow you 
to comment on whether or not that's an appropriate thing to do 
but, if you feel----
    Colonel Leady. --the history of the----
    Mrs. Miller of Michigan. --you can do that.
    Colonel Leady. --Chicago Sanitary Ship Canal is a very 
interesting engineering history, it was done about a hundred 
years ago, a little less I think, because of the sewage that 
the City of Chicago and the metropolitan area was putting into 
the lake, and they couldn't put their intake water for their 
drinking water out far enough to get clear of their own sewage 
so, just from a net effect, the Long Lac and Ogoki diversions 
were put in during World War II in Canada, and take water that 
would have gone into the Hudson Bay, put it into Lake Superior, 
and you can't really do a direct comparison because water 
evaporates along the way, but they put in a little more than 
five million cubic feet per second and the Chicago Sanitary 
Shipping Canal is a little more than three million cubic feet 
per second on average, that is a long-term average, and they 
vary quite a bit, so the net effects of diversions, at least 
the major diversions of the Great Lakes, is an add to the Great 
Lakes.
    I am not trying to justify the Chicago Sanitary Ship Canal; 
I am trying to highlight the facts, ma'am.
    Mrs. Miller of Michigan. Yeah. Well, it's great if you're 
in Chicago from a sanitary purpose and in the Great Lakes we 
didn't want all of that in the Great Lakes. Perhaps if you live 
in St. Louis you're not so happy with all of that flowing by 
you now, but at any rate, it is an interest thing.
    And the whole issue of water diversion, and I'll close on 
this because I know we're out of time, is a huge issue 
obviously for all of us in the Great Lakes basin. There's a--as 
we see the other parts of the country that are very hot and dry 
and thirsty, et cetera, and they are looking very enviously at 
our Great Lakes and I think for all of us in the Great Lakes 
basis we always want to be ever vigilant to make sure that 
there is not a wholesale diversion of our Great Lakes.
    So I appreciate your testimony Colonel, and you're doing a 
great job, and thank you for your service to our nation as 
well.
    Mr. Oberstar. I concur. Yeah, you've been a great 
contribution to this particular hearing and as the Corps always 
does it's extraordinary work at the command of Congress. People 
often blame the Corps for this, that or the other thing but 
it's Congress that gives the Corps its marching orders and the 
Corps carries them out whether--whether we do a right job or 
not, whether we're on the right mark or not, you carry it out 
or you tell us not to do it.
    I was a little concerned that you say the IJC is not going 
to address this matter of the--of the weirs?
    Colonel Leady. Well, sir, what the IJC, their study is 
going to look at whether there's an ongoing--or not is going 
to, is looking at the--specifically looking at what the Baird 
Report or what some people refer to as the Georgia Bay 
Associates Report, is whether the bottom of the St. Clair River 
especially upstream, the kind at the headwaters and throughout 
the whole reach, is eroding due to dredging and due to human 
activity, so in very general terms that report alleged that by 
breaking through the rock basin and the clay basin there, the 
bottom is now eroding and the levels of Lake Erie really and 
Lake Huron are coming more in line. And there is some evidence 
that they report to and certainly, you know, Lake Erie is above 
average and Lake Michigan and Huron are below average. That is 
what that report stated.
    The IJC is looking to see if that is substantiated and they 
are looking at it from a more detailed long-term perspective 
than that original report. But the issue of whether or not 
human activity lowered Lake Michigan and Huron in the late 19th 
and early 20th Century, they are not looking at it specifically 
because it is pretty much a documented fact that it has, how 
much, whether it is 14 inches or 17 inches is up for scientific 
debate, but there is no doubt that it is in that range or at 
least that is what the scientific community to include the 
Corps and the IJC and others believe now, sir.
    Mr. Oberstar. Going back even to the early 1900s when sand 
and gravel was removed without permitting and without any 
oversight and--and probably some three million cubic meters 
were removed.
    Well, we--we will need some further consultation with 
your--with you and your staff and--and maybe with the division, 
probably with the Chief's office, as we go through this WRDA to 
see whether--WRDA, Water Resources Development Authorization, 
see whether there's something we can include to accelerate this 
work on the St. Clair that has a great many people concerned.
    Colonel Leady. Yes, sir.
    Mr. Oberstar. Miss Miller, any further comments?
    Mrs. Miller of Michigan. I just wanted to thank the County 
Board of Commissioners again for their gracious hospitality in 
letting us utilize this beautiful room for the--for the hearing 
today.
    And Colonel, we're aware that you're going to be traveling 
in theater in Iraq in several months and we certainly wish you 
well as an ambassador of freedom, we certainly and again, 
appreciate your service to the nation, and all of our witnesses 
were terrific.
    And again Mr. Chairman, I can't tell you how absolutely 
delighted I am personally and I think I speak for--on behalf of 
all the citizens of the Blue Water area here, and Port Huron, 
one of your adopted homes, to welcome you back and we certainly 
sincerely appreciate you traveling here today and I think the 
Committee has a lot to digest and think about as we continue 
our work to protect our magnificent Great Lakes.
    Mr. Oberstar. We've had a great start on doing that and I 
thank you for your kind words and--and again, thank the Board 
of Commissioners for this splendid facility. We've held 
hearings throughout the country, rare--rarely do we have 
something quite so accommodating as--as this and quite--that 
reflects our Committee hearing facility in Washington.
    I again, thank all of the witnesses and all those that came 
to participate, I hope you've learned as much as we have and 
we'll take these lessons back to the Committee with us and--and 
work to weave them into legislative action.
    Committee is adjourned.
    Mrs. Miller of Michigan. Thank you.
    [Whereupon, at 2:13 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2636.010
    
    [GRAPHIC] [TIFF OMITTED] T2636.011
    
    [GRAPHIC] [TIFF OMITTED] T2636.012
    
    [GRAPHIC] [TIFF OMITTED] T2636.013
    
    [GRAPHIC] [TIFF OMITTED] T2636.014
    
    [GRAPHIC] [TIFF OMITTED] T2636.015
    
    [GRAPHIC] [TIFF OMITTED] T2636.016
    
    [GRAPHIC] [TIFF OMITTED] T2636.017
    
    [GRAPHIC] [TIFF OMITTED] T2636.018
    
    [GRAPHIC] [TIFF OMITTED] T2636.019
    
    [GRAPHIC] [TIFF OMITTED] T2636.020
    
    [GRAPHIC] [TIFF OMITTED] T2636.021
    
    [GRAPHIC] [TIFF OMITTED] T2636.022
    
    [GRAPHIC] [TIFF OMITTED] T2636.023
    
    [GRAPHIC] [TIFF OMITTED] T2636.024
    
    [GRAPHIC] [TIFF OMITTED] T2636.025
    
    [GRAPHIC] [TIFF OMITTED] T2636.026
    
    [GRAPHIC] [TIFF OMITTED] T2636.027
    
    [GRAPHIC] [TIFF OMITTED] T2636.028
    
    [GRAPHIC] [TIFF OMITTED] T2636.029
    
    [GRAPHIC] [TIFF OMITTED] T2636.030
    
    [GRAPHIC] [TIFF OMITTED] T2636.031
    
    [GRAPHIC] [TIFF OMITTED] T2636.032
    
    [GRAPHIC] [TIFF OMITTED] T2636.033
    
    [GRAPHIC] [TIFF OMITTED] T2636.034
    
    [GRAPHIC] [TIFF OMITTED] T2636.035
    
    [GRAPHIC] [TIFF OMITTED] T2636.036
    
    [GRAPHIC] [TIFF OMITTED] T2636.037
    
    [GRAPHIC] [TIFF OMITTED] T2636.038
    
    [GRAPHIC] [TIFF OMITTED] T2636.039
    
    [GRAPHIC] [TIFF OMITTED] T2636.040
    
    [GRAPHIC] [TIFF OMITTED] T2636.041
    
    [GRAPHIC] [TIFF OMITTED] T2636.042
    
    [GRAPHIC] [TIFF OMITTED] T2636.043
    
    [GRAPHIC] [TIFF OMITTED] T2636.044
    
    [GRAPHIC] [TIFF OMITTED] T2636.045
    
    [GRAPHIC] [TIFF OMITTED] T2636.046
    
    [GRAPHIC] [TIFF OMITTED] T2636.047
    
    [GRAPHIC] [TIFF OMITTED] T2636.048
    
    [GRAPHIC] [TIFF OMITTED] T2636.049
    
    [GRAPHIC] [TIFF OMITTED] T2636.050
    
    [GRAPHIC] [TIFF OMITTED] T2636.051
    
    [GRAPHIC] [TIFF OMITTED] T2636.052
    
    [GRAPHIC] [TIFF OMITTED] T2636.053
    
    [GRAPHIC] [TIFF OMITTED] T2636.054
    
    [GRAPHIC] [TIFF OMITTED] T2636.055
    
    [GRAPHIC] [TIFF OMITTED] T2636.056
    
    [GRAPHIC] [TIFF OMITTED] T2636.057
    
    [GRAPHIC] [TIFF OMITTED] T2636.058
    
    [GRAPHIC] [TIFF OMITTED] T2636.059
    
    [GRAPHIC] [TIFF OMITTED] T2636.060
    
    [GRAPHIC] [TIFF OMITTED] T2636.061
    
    [GRAPHIC] [TIFF OMITTED] T2636.062
    
    [GRAPHIC] [TIFF OMITTED] T2636.063
    
    [GRAPHIC] [TIFF OMITTED] T2636.064
    
    [GRAPHIC] [TIFF OMITTED] T2636.065
    
    [GRAPHIC] [TIFF OMITTED] T2636.066
    
    [GRAPHIC] [TIFF OMITTED] T2636.067
    
    [GRAPHIC] [TIFF OMITTED] T2636.068
    
    [GRAPHIC] [TIFF OMITTED] T2636.069
    
    [GRAPHIC] [TIFF OMITTED] T2636.070
    
    [GRAPHIC] [TIFF OMITTED] T2636.071
    
    [GRAPHIC] [TIFF OMITTED] T2636.072
    
    [GRAPHIC] [TIFF OMITTED] T2636.073
    
    [GRAPHIC] [TIFF OMITTED] T2636.074
    
    [GRAPHIC] [TIFF OMITTED] T2636.075
    
    [GRAPHIC] [TIFF OMITTED] T2636.076
    
    [GRAPHIC] [TIFF OMITTED] T2636.077
    
    [GRAPHIC] [TIFF OMITTED] T2636.078
    
    [GRAPHIC] [TIFF OMITTED] T2636.079
    
    [GRAPHIC] [TIFF OMITTED] T2636.080
    
    [GRAPHIC] [TIFF OMITTED] T2636.081
    
    [GRAPHIC] [TIFF OMITTED] T2636.082
    
    [GRAPHIC] [TIFF OMITTED] T2636.083
    
    [GRAPHIC] [TIFF OMITTED] T2636.084
    
                                    

</pre></body></html>
